<html>
<title> - LICENSURE AND CERTIFICATION OF TRANSITIONING VETERANS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                     LICENSURE AND CERTIFICATION OF

                         TRANSITIONING VETERANS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 20, 2007

                               __________

                           Serial No. 110-44

                               __________

       Printed for the use of the Committee on Veterans' Affairs









                   U.S. GOVERNMENT PRINTING OFFICE
39-453                      WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001










                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas, Ranking
JERRY McNERNEY, California           RICHARD H. BAKER, Louisiana
JOHN J. HALL, New York               JERRY MORAN, Kansas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           September 20, 2007

                                                                   Page

Licensure and Certification of Transitioning Veterans............     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    24
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    24

                               WITNESSES

U.S. Department of Defense, Leslye A. Arsht, Deputy Under 
  Secretary of Defense (Military Community and Family Policy)....    14
    Prepared statement of Ms. Arsht..............................    31
U.S. Department of Labor, John M. McWilliam, Deputy Assistant 
  Secretary, Veterans' Employment and Training Service...........    16
    Prepared statement of Mr. McWilliam..........................    34
U.S. Department of Veterans Affairs, Keith M. Wilson, Director, 
  Education Service, Veterans Benefits Administration............    17
    Prepared statement of Mr. Wilson.............................    36

                                 ______

American Legion, Ronald F. Chamrin, Assistant Director, Economic 
  Commission.....................................................     3
    Prepared statement of Mr. Chamrin............................    25
Veterans of Foreign Wars of the United States, Dennis M. 
  Cullinan, Director, National Legislative Service...............     5
    Prepared statement of Mr. Cullinan...........................    27
Vietnam Veterans of America, Richard F. Weidman, Executive 
  Director for Policy and Government Affairs.....................     6
    Prepared statement of Mr. Weidman............................    29

                       SUBMISSIONS FOR THE RECORD

ASIS International, Alexandria, VA, statement....................    36
National Organization for Competency Assurance, James Kendzel, 
  MPH, SPHR, Executive Director, statement.......................    37

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Keith M. Wilson, Director, Education Service, Veterans 
      Benefits Administration, U.S. Department of Veterans 
      Affairs, letter dated October 30, 2007.....................    47

 
                     LICENSURE AND CERTIFICATION OF
                         TRANSITIONING VETERANS

                              ----------                              


                      THURSDAY, SEPTEMBER 20, 2007

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:17 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, and Boozman.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon ladies and gentlemen. 
The Veterans' Affairs Economic Opportunity Subcommittee Hearing 
on Licensure and Credentialing will come to order.
    Before I begin with my opening statement, I would like to 
call attention to the fact that Mr. Michael Stack, Executive 
Director for ASIS International, has asked to submit a written 
statement for the hearing record. I ask unanimous consent that 
his statement be entered for the record.
    Hearing no objection, so entered.
    [The statement of ASIS International appears on p. 36.]
    Over the past year, our Subcommittee has focused most of 
its energy on employment-related issues ranging from transition 
assistance to servicemembers, small business opportunities for 
veterans, and employment within the Federal Government. In 
today's hearing, we will continue to examine these issues and 
hear valuable insight as to how to better provide veterans and 
returning servicemembers with the resources to make the 
transition back to civilian life and receive the opportunities 
they deserve.
    I look forward to hearing from veteran service organization 
(VSO) representatives on concerns their members have 
encountered when seeking certification or licensing in the 
civilian sector, to include enforcing laws to ensure those 
responsible are doing their job.
    I also look forward to hearing about the possibilities of 
expanding existing laws to provide more opportunities and 
resources to our Nation's veterans seeking ways to start new 
careers in the civilian sector.
    Throughout my tenure in Congress, I have been approached by 
several of my constituents to find ways to improve existing 
laws such as the Montgomery GI Bill (MGIB). It is my belief 
that this Subcommittee has the opportunity to work together on 
these issues with veteran service organizations, our colleagues 
in the Senate, and Administration officials.
    This Subcommittee and this Congress has a responsibility to 
help bridge the gap between military service and veteran status 
and assist these brave men and women as they transition back to 
the civilian sector to pursue new educational opportunities, 
start new careers, and establish themselves in the communities 
they help to protect.
    With that I now recognize the distinguished Ranking Member, 
Mr. Boozman, for any opening remarks you may have.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 24.]

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Madam Chair. And thank you also for 
highlighting the need to improve opportunities for veterans to 
have their military training and education counted toward 
qualifying for civilian occupations.
    As you remember we authorized the Veterans' Employment and 
Training Service (VETS) to conduct a pilot licensing and 
certification project. I am very eager to hear what progress 
VETS has made toward implementing that authority.
    I am also a little bit concerned that the continuum of 
responsibility beginning with the Military Services to the U.S. 
Department of Labor (DoL) and the U.S. Department of Veterans 
Affairs (VA) and any of the States has really never been 
solidified. Without making the connections, veterans will 
continue to experience delays in qualifying for civilian 
occupations for which they have been trained during their 
military service.
    Taxpayers will also see valuable training dollars and 
experience wasted. States bear a measure of responsibility, 
too, by setting qualification standards for everything from 
commercial driver's licenses (CDLs) to teachers and physicians. 
States are the final arbiter of whether military training will 
count toward qualifications.
    I am disappointed that the National Governors' Association 
was not able to be with us today and I hope that they will come 
to talk to us soon about their role in this issue.
    Thank you, Madam Chair. I yield back.
    [The prepared statement of Congressman Boozman appears on 
p. 24.]
    Ms. Herseth Sandlin. Thank you, Mr. Boozman. I would now 
like to welcome our panelists testifying on the first panel 
before the Subcommittee today. Joining us is Mr. Ron Chamrin, 
Assistant Director on the Economic Commission for the American 
Legion; Mr. Dennis Cullinan, National Legislative Service 
Director for the Veterans of Foreign Wars of the United States 
(VFW); and Mr. Rick Weidman, Executive Director for Policy and 
Government Affairs for the Vietnam Veterans of America.
    I would like to remind our panelists that your complete 
written statements have been made part of the hearing record. 
Please limit your remarks to 5 minutes so we may have 
sufficient time to follow up with questions once everyone has 
had the opportunity to provide their oral testimony.
    Mr. Chamrin, lets begin with you. You are now recognized 
for 5 minutes.

 STATEMENTS OF RONALD F. CHAMRIN, ASSISTANT DIRECTOR, ECONOMIC 
  COMMISSION, AMERICAN LEGION; DENNIS M. CULLINAN, DIRECTOR, 
 NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE 
 UNITED STATES; AND RICHARD F. WEIDMAN, EXECUTIVE DIRECTOR FOR 
   POLICY AND GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA

                 STATEMENT OF RONALD F. CHAMRIN

    Mr. Chamrin. Thank you, Madam Chairwoman. It is an honor to 
be back and it is good to see you and Ranking Member Boozman. 
Once again, thank you for this opportunity to present the 
American Legion's view of the licensure and credentialing of 
servicemembers and veterans to the Subcommittee today.
    The American Legion asserts that veterans have been 
trained, educated, disciplined, and molded by the greatest 
military that the world has ever seen, yet a large number of 
these skills are deemed non-applicable in the civilian sector.
    With all of these great skills and abilities, a casual 
observer would assume that veterans are easily employed and can 
transition their military experience to the private sector with 
ease. Unfortunately, that is not the case.
    The American Legion supports efforts to eliminate 
employment barriers that impede the transfer of military job 
skills to the civilian labor market and that the DoD take 
appropriate steps to insure that servicemembers be trained, 
tested, evaluated and issued any license or certification that 
may be required in the civilian workforce.
    The American Legion supports making the GI Bill available 
to pay for all necessary civilian license and certification 
examination requirements, including necessary preparatory 
courses. We also support efforts to increase the civilian labor 
markets acceptance of the occupational training provided by the 
military.
    Speaking of military training, the DoD provides some of the 
best vocational training in the Nation for it's military 
personnel and establishes measures and evaluates performance 
standards for every occupation with the Armed Forces. There are 
many occupational career fields in the Armed Forces that can 
easily translate to a civilian counterpart. Additionally, there 
are many occupations in the civilian workforce that require a 
license or a certification.
    Upon separation, many foreign military personnel certified 
as proficient in their military occupational career are not 
licensed or certified to perform the comparable job in the 
civilian workforce, thus hindering chances for immediate 
civilian employment and delaying career advancement. This 
situation creates an artificial barrier to employment upon 
separation from military service.
    The VA and their potential impact on licensure and 
credentialing.
    The American Legion applauds the fact that since January of 
2006, all eligible veterans using the GI Bill programs can now 
receive reimbursement for licensing and certification tests. 
However, the government is paying twice and sometimes three or 
more times for training and licensing of the same task. DoD 
also spends billions of American tax dollars each year training 
members of the military. Some civilian skills are very similar 
in nature to those duties performed while in the military, yet 
taxpayers may be funding training twice for the same individual 
through the DoD and then the VA, through the GI Bill program.
    This is financially irresponsible and counterproductive to 
individual veterans who must use their earned GI Bill benefits 
to take civilian proficiency tests. The American Legion also 
notes that there have been veterans who are reservists called 
to active duty that are losing their earned education benefits 
once they complete their service contract. Therefore, they must 
find alternative means for funding.
    The most recent visible example of this unjust denial of 
benefits is the demobilization of 2,600 members of the 
Minnesota National Guard who has just performed the longest, 
continuous combat tour in Iraq of any military unit to date. 
Mobilized for 22 months, they are ineligible to enroll in the 
GI Bill active duty because they fall short of the required 24-
month deadline by only 2 months. If they wanted to use the GI 
Bill for licensing and certification after they are done with 
the National Guard and the Reserve Service they can't, because 
they are no longer in the Reserves.
    Military transcripts. Military transcripts provided from 
each of the Armed Forces provide a very limited training 
education record and at times are incorrect, missing, or 
additional information is listed. I myself have three military 
occupational specialties (MOSs) from the Army but it has five 
listed in my military transcript. So I have to go through the 
steps to correct that and take off additional MOSs that I am 
not even qualified for.
    Once again, highlighting the Guardsman in Minnesota, many 
of them infantry, these servicemembers have enormous talents, 
skills, and attributes they have used while in theater. 
However, because tasks they performed are so unique and 
difficult to succinctly describe, they are left with an empty 
shell of a resume.
    We observe that Transition Assistance Program (TAP) modules 
are excellent avenues for each individual U.S. State to access 
transitioning servicemembers. When servicemembers are at these 
TAP sites around the country, each State workforce agency or 
credentialing board can provide important information. Better 
coordination, communication and interaction of credentialing 
boards and the training commands of each of our Nation's Armed 
Forces are needed. Furthermore, military trainers, doctrine 
writers, and evaluation tests for military skills should 
coordinate with their civilian counterparts and attempt to 
synchronize military tests with their civilian counterparts.
    My final point will be the National Association of Boards 
and the Counsel of Licensure Enforcement and Regulation that 
has a database of national approving boards. Each TAP site 
should coordinate with boards to have a representative 
participate. Additionally, each U.S. State regulatory board 
should also coordinate with TAP personnel and brief on 
transitioning servicemembers the unique relevant requirements 
needed for certification.
    In conclusion, there have been estimates that approximately 
60 percent of the workforce will retire by 2020 and competent, 
educated, and capable individuals must replace the workforce in 
order to assure the United States retains it's competitive edge 
in the world. The veterans of this Nation make up a well-
qualified disciplined pool of applicants. Increasing 
recognition of military training by integrating licensing and 
credentialing must be strengthened to assist our country's 
finest to achieve their professional goals.
    Madam Chairwoman and Ranking Member Boozman, I appreciate 
the opportunity to present the American Legion's views on these 
important issues. I would be happy to answer any questions you 
may have.
    [The prepared statement of Mr. Chamrin appears on p. 25.]
    Ms. Herseth Sandlin. Thank you very much for your 
testimony. Mr. Cullinan, you are now recognized.

                STATEMENT OF DENNIS M. CULLINAN

    Mr. Cullinan. Thank you very much, Madam Chairwoman, Mr. 
Boozman. On behalf of the men and women of the Veterans of 
Foreign Wars, I want to thank you for inviting us to testify at 
today's important hearing.
    As cited in the September 2005 ``Study on Coordination of 
Job Training Standards with Certification Standards for 
Military Occupational Specialties,'' our Nation needs an 
increasingly skilled workforce. We would all agree that there 
is no more deserving or valuable a group of American workers 
than our Nation's servicemembers and veterans. Key to our 
facilitating a smooth and ready transition from the military to 
the private sector workplace is civilian credentialing.
    Civilian credentials maximize a servicemember's ability to 
demonstrate that the skills acquired in the military are on a 
par with their civilian counterparts. This results in 
diminishing the periods of unemployment or underemployment that 
might otherwise occur when moving into the civilian workforce.
    The civilian workforce increasingly relies upon 
credentialing as a way to regulate entry into certain 
occupations and to promote accountability for performance and 
public safety. Its value to the military is also being 
increasingly recognized. Credentialing offers professional 
growth and development opportunities for individuals in the 
service and has been used by the Military Services for both 
recruiting and retention.
    The gaps that exist between the requirements for civilian 
occupational credentials and the world class education, 
training, and experience provided by the military continue to 
make it difficult for transitioning military to make a smooth 
entry into the appropriate civilian sector employment.
    Additional challenges to credentialing the servicemember 
include statutory fiscal constraints. Insufficient legal 
authority exists for the Armed Forces to expend appropriated 
funds for servicemembers to acquire civilian and or commercial 
occupational credentials. For example, absent specific 
statutory authority, appropriated funds may not generally be 
used to pay for commercial certifications, although 
appropriated funds may be used to pay for commercially 
contracted training courses that include an examination leading 
to credentials if the examination logically relates to the 
training and is part of a purchase price of a course package. 
Reserve forces face additional constraints.
    Even with these constraints and challenges, the 
credentialing picture for our servicemembers transitioning into 
the civilian workforce has improved markedly with the current 
and continuing programs of each of the Military Services and 
the cooperative efforts between DoD and Defense. Excuse me. The 
Department of Labor and Defense.
    It is clear, however, that much more needs to be done and 
done quickly. The situation is especially urgent not only in 
the context of doing the right thing by our young men and women 
in uniform moving into civilian lives but in considering that a 
high number of these important jobs are now being carried out 
by baby boomers.
    Over the next 10 years over half of this aging population 
will be retiring. It is very much in our national interest to 
make sure we have the right people in place to assume these 
very important, highly demanding occupations. This is a matter 
of our collective economic and governmental security.
    Madam Chairwoman and Members of the Subcommittee, Mr. 
Boozman, this concludes my testimony. I would urge you to 
review the attached VFW Resolution Number 618 entitled, 
``Licensure and Certification,'' which urges in part a 
standardized licensure and certification requirement be adopted 
by the appropriate Federal and State agencies and that recently 
separated servicemembers be afforded the opportunity to take 
licensing and certification exams based on existing skills 
acquired while in the military.
    Thank you very much. I would be happy to respond to any 
questions you may have.
    [The prepared statement of Mr. Cullinan appears on p. 27.]
    Ms. Herseth Sandlin. Thank you very much for your 
testimony. Mr. Weidman you are now recognized for 5 minutes.

                STATEMENT OF RICHARD F. WEIDMAN

    Mr. Weidman. Madam Chairwoman, Mr. Boozman, thank you very 
much, both of you, for your continued bipartisan leadership on 
these vital issues of employment and training and economic 
opportunities for America's veterans.
    The subject this morning of licensure and certification to 
many seems a dry and arcane one, but it is by no means a dry 
and arcane one. It is a significant barrier to employment and 
more importantly to utilizing the skills for which the 
taxpayers have spent billions of dollars. The grand daddy of 
all training institutions is the United States military. They 
do it well. They do it extensively. They leave no one behind. 
And you have to get it right. There is no do over when you are 
doing explosive ordinance disposal. You either learn it and you 
learn it cold and you get it right coming out of school or you 
die. It is as simple as that. And that is just one example of 
many military occupations.
    But the occupations to run the United States military and 
work the modern battlefield cover virtually every type of work 
that our society needs performed today in order to remain 
competitive in the world and get our Gross Domestic Product up 
and to compete in the global markets. Yet we are not certifying 
those acquired skills for which, literally, we have spent 
billions to teach people how to do this, to acquire this 
knowledge, to acquire these extraordinary skills. And for the 
lack of the civilian certification to be marketable in the job 
market once they come out of the military we are throwing all 
of those resources away that we can ill afford to let go.
    We are very grateful to the Congress for all of the 
increases in the Montgomery GI Bill and our hope is that we 
will return to a World War II style GI Bill for people in the 
future, but that is more billions. But in the meantime, lets 
capitalize off what we have already spent. With some thought 
and with bringing stakeholders together we can in fact begin to 
move forward.
    One of the most notable examples following the Vietnam War 
was the MEDEX program and it began with one program called the 
MEDEX program at the Dartmouth College it was then. It is now 
Dartmouth University in Hanover, New Hampshire. I was in 
Vermont and the Vermont State College System at that time and 
one of my other duties as assigned, if you will by my college 
president, was to help recruit medics and corpsmen for that 
first class in medics in Dartmouth, because I was in Northern 
Vermont.
    The whole profession of physician assistants (PAs) really 
grew from that one program and from the desire to capitalize 
off that wealth of experience, knowledge, and skills that we 
brought home. Many of us knew things far beyond what one would 
anticipate. I could not even get a job on an ambulance if I 
wanted it because I was not a certified emergency medical 
technician (EMT). However, in Vietnam, I delivered babies. Not 
of GI's but of Vietnamese nationals. I did not just cryacheo 
tracheotomies but tracheotomies. I could do cut downs. I did 
inserted chest tubes. And I could go on and on and on.
    The point about it is, and I was not unusual as a medic. 
Many other people did the same thing and had those kinds of 
skills but there was no place to get them credentialed within 
our society. I think many of us know, and certainly in South 
Dakota and Arkansas and other rural-area physician assistants, 
have become an absolutely indispensable part of the medical 
network for delivery of medical care. This is just one example. 
And we can do this right across the board with forethought and 
with relatively little expenditure of funds.
    As part of Public Law 106-50, the Congress recognized that 
and created a credentialing element, if you will, but 
unfortunately put it in the Veterans Corporation. And the 
Corporation was not even up and running. It should have been at 
the Department of Labor all along. It should be placed at the 
Department of Labor today. And we should not just authorize it, 
but put some significant funds behind it.
    And how to do that, if I may be so bold as to suggest, is 
not in a formal hearing, but a roundtable bringing stakeholders 
together from DoD, from VA, particularly from VA Voc Rehab, 
Department of Labor, the Veterans Service Organization since 
Shirley, but also others like business leaders. I would call 
your attention to the fact that the business community is 
crying out for skilled workers and it is having a tough time 
recruiting.
    One of the things that Vietnam Veterans of America does, 
and we are a full member of the United States Chamber of 
Commerce, is we are active on the Institute for a Competitive 
Workforce. And big business and small businesses are deeply 
concerned about finding people who can perform the tasks that 
they need performed.
    What we should be doing is credentialing those people 
coming out of the military so that they can get those jobs and 
help American business continue to grow our Domestic Product, 
Gross Domestic Product. We cannot have a strong defense if we 
can't pay for it, so why in the world are we wasting the 
billions that we have used to train people who can help our 
economy stay strong, prosperous, and growing even more quickly 
than it is today.
    Madam Chairwoman, that concludes my statement. I would be 
happy to answer any questions that you or the Ranking Member 
may have.
    Once again, thank you very much for the opportunity to join 
you here today.
    [The prepared statement of Mr. Weidman appears on p. 29.]
    Ms. Herseth Sandlin. Well thank you. I appreciate the 
testimony from all three of you and the insights you have 
provided.
    Let me start with you, Mr. Chamrin. You had stated that we 
are essentially funding the same training twice. As my 
constituents in the audience leave to catch their flight back, 
this is an issue that is important. I will let them go. They 
are terrific folks with the American Legion from South Dakota. 
Jean and Reed, we will see you back in the State.
    As they are leaving, Reed brought up an issue to me that 
relates to this topic. In the Air National Guard, some of the 
mechanics trained to take care of the aircraft at Joe Foss 
Field, via a civilian Federal agency with the Federal Aviation 
Administration, mechanics must go through a different process 
by which to get the credentialing to work on planes on the 
other side of the runway.
    When we talk about paying for the training twice, have you 
done any analysis of what skills we are talking about where 
this is most frequently taking place in terms of the training 
provided at DoD? Then how is that training getting duplicated 
unnecessarily, in your opinion and in your testimony, to meet 
certain certification requirements once there is a transition 
to the civilian sector utilizing VA benefits?
    Have you done any kind of categorization or inventory of 
which skills-sets were the most frequent?
    Mr. Chamrin. Unfortunately, there are no studies, but I can 
provide you numerous letters from our constituents and our 
members to the American Legion.
    I was primarily focusing on the testing and having to use 
the GI Bill to pay for these licensing and certification 
testing when, if the DoD could provide a license through DoD 
dollars rather than having the veteran use their GI Bill 
benefits for the licensing and certification.
    Ms. Herseth Sandlin. Okay. I appreciate that clarification.
    On a similar line, I have a question for all three of you. 
Has there been any analysis done and you stated this in your 
testimony Mr. Chamrin where you make reference to the 
President's Commission on Servicemembers and Veterans 
Transition Assistance? Of the 105 military professions that 
require licensure and credentialing, which of the 105 are 
giving veterans the most difficulty when transitioning to the 
civilian sector?
    Do we have any inventory or analysis there?
    Mr. Chamrin. Thanks. Rick alluded to that. The medical 
fields are really difficult, because they are so precise and so 
technical.
    [To Rick Weidman.] If you know the exact ones, I don't know 
the exact ones.
    But I know that if you were a GP in the military, it might 
be more easy to transfer that skill of general practitioner. 
But if you were a cardiologist or a specific skill, it is going 
to be really hard to get the military training--the military 
certification over to the civilian, unless you take that State 
Board and then you are certified there.
    I couldn't talk about all 105, though.
    [To Rick Weidman.] Maybe, do you know?
    Ms. Herseth Sandlin. Before you follow up on that, I think 
Mr. Cullinan and you had stated in the resolution that you 
referenced what VFW has proposed. When you say if they have not 
taken a State Board, is the problem here the fact that there is 
DoD policy whereby funds don't exist to pay while on active 
duty to meet State Board requirements or other certification 
requirements?
    Mr. Cullinan. Well, there were a couple. I think it was 
alluded to earlier. You take the case of the Guard and Reserve, 
Ron, I think you mentioned that. You leave the Guard and 
Reserve, you don't have an educational benefit anymore so you 
are out of luck.
    The other issue that we are looking at as an organization, 
there are certain skills that are acquired while in the 
military, be that as it may, if you want to go into a given 
profession, say you know electronics, the healthcare field. 
Oftentimes, the State will require you to go through a certain 
educational process before you can take the exam.
    What we are saying is if the military standards are 
equivalent that individual should either be able to take the 
exam without any kind of educational or minimal or reduced 
requirement. And that is our proposal.
    Ms. Herseth Sandlin. Thank you. Mr. Weidman, did you have a 
followup?
    Mr. Weidman. A lot of it is not money. It is not going to 
cost you any money out of hand. I will use the example of the 
EMT with the Army medics. One of the things that we started 
with some other folks and it was actually started by a guy by 
the name of Doug Taylor, who is tired of listening to me crab 
about it, who was the veterans representative on the Job 
Training Partnership Council for the State of New York. And 
Doug took the lead and it was backed up by Jim Hartman who was 
a USD of Well Vets Director for the State of New York. And we 
got other folks, including the Governor, behind it.
    And we were able to get the attention of the services and 
particularly of the Army at Fort Sam Houston where all Army 
medics train. So since that time, and I think it is still going 
on, when people graduate from Fort Sam, from the Medical 
Training Center, they have the option of taking an EMT exam. 
What took 3 years was getting all 53 jurisdictions to agree to 
accept this one exam that was a combination of written, oral, 
and practical. And they finally achieved that.
    And, therefore, you would have this credential even at the 
beginning of your Army career so when you came out you could 
always find a job. EMT's are always in demand, whether you are 
in an urban area or a rural area, and particularly if you have 
hands on experience, which obviously medics since the advent of 
Operation Enduring Freedom/Operation Iraqi Freedom (OEF/OIF) 
have a great deal of hands on experience, more than enough to 
last seven lifetimes.
    Ms. Herseth Sandlin. I appreciate that. Before I recognize 
the Ranking Member, let me comment that when you bring up EMT's 
as one example we have a number of National Guard and Reservist 
in South Dakota, and I am sure a lot of other States, that 
actually are EMT's in their communities. In rural areas in 
particular. Time and again, and particularly both trips that I 
have made to Iraq, the comments of the generals are, ``Oh, with 
the National Guard and Reserve, they bring all of these other 
skills to the table,'' from their civilian careers.
    I would think that if we are transferring it more readily 
one way, then we should be able to transfer it more readily the 
other way. Let me now recognize Mr. Boozman for his questions.
    Mr. Boozman. Thank you very much. I guess this is something 
that I have really been interested in and it just makes all the 
sense in the world, but it is difficult. It seems like there is 
really a couple things going on. You have the actual 
certification that you have to do. So if you are a truckdriver, 
and I just came back from Kuwait and Iraq and Afghanistan. We 
have a lot of National Guardsmen in Kuwait and that is the area 
where they are bringing all this stuff in and then they are 
trucking it over. And, in fact, they had an impromptu pinning 
of a couple of guys with Purple Hearts that were truckdrivers. 
About one in ten of the convoys get hit. And so these guys are 
driving these huge rigs that are up armored and stuff. And 
those same guys when they come back to the States, if they are 
on an interstate and driving an Army truck, it is perfectly all 
right to do.
    So the credentialing is a problem. It seems like there 
should be some mechanism that those guys get their commercial 
drivers license by basis of their Army training. That is one 
problem we have and it does not matter the profession.
    The other problem, though, is getting licensed in a State. 
And that is not just an Army or not just a military problem. I 
am an optometrist. I am from Arkansas and if I decided that I 
wanted to go and practice in a sunny, nice retirement State, it 
would probably be very difficult for me to get a license there. 
These licensures should be strictly just for competence but 
they are also designed to keep people out.
    And that is just the way it is. Now what has happened in 
the last several years that has been broken down to a large 
extent. When I started practice in Arkansas 30 years ago, you 
had to own property in Arkansas for a year before you could 
take the test.
    So we have these other problems. And that has all gone away 
now, but it does--most States now, have reciprocity where they 
work back and forth. Not all of them, but most of them do. So 
the other thing is figuring out how the military is almost like 
a State where it has reciprocity like the rest of the States.
    So I guess what I am saying is that this thing is something 
that we have to get done. It is a commonsense thing, but there 
are some things out there that we have just got to work 
through. And some of the problems that we are dealing with 
aren't inherent just to the military.
    The other problem, I think, is that again, if a guy has 
been in Iraq, say he has been in the military 10 years and he 
has been a truckdriver the whole time regardless of where he 
has been, he has run up and down the interstates, is getting 
credit for those 10 years and that I think is really one of the 
bigger deals of all this is when he hires on at a major 
trucking company or an independent, that it is recognized, and 
that he has 10 years behind the wheel and so many miles. And 
many times, they don't do that. Okay?
    So those are kind of the problems. You can comment about 
those things if you would like. I think the roundtable approach 
to some of these things might be a good idea because it is 
really difficult to kind of get to the root of some of this 
stuff, unless you aren't just kind of visiting back and forth 
and maybe have some of the heads of the State Boards in 
different professions that can give us input. And, again, like 
I said, in some cases, I think we will find that this is not 
just a military problem, it is just a problem in general.
    Mr. Chamrin. Madam Chair, may I say something? Regarding 
the truckdrivers, in the Army because I am still a Reservist, 
there are badges for safe driving according to the number of 
miles. I think it is 10,000 then 20,000. I couldn't tell you 
exactly, but there are badges.
    And we were talking about some skilled professions, doctors 
and PA's, but just to transport ammunition you need a hazmat 
license and hazmat qualification. So people in my Reserve unit 
are going to Fort Meade, taking a class, getting a hazmat 
certification through the Army, transporting just M-16 rounds 
down to Fort A.P. Hill so we can fire them for a qualification. 
But that is only within the military. They can't go to Virginia 
and drive hazardous materials through the State of Virginia.
    And, if I may, really quickly, going back to the Minnesota 
National Guard, a lot of them are 11-Bravo, which is infantry 
men. But many of us know that they have performed duties much, 
much more than infantry men such as like a chief advisor to a 
Mayor, a facilitator of incubators, maintenance at a local 
hospital, and more specified individual tasks. So if we can 
take those skills and also put it on the military transcript.
    I can just speak for the Army Training Requirements and 
Resource System, they can put that in there. Not just their 11-
Bravo where they can shoot an M-16 and a 249 and specific 
weapons, but what they actually did in Iraq and Afghanistan on 
there.
    Ms. Herseth Sandlin. I think there is some agreement here, 
that is a very good point. Currently, what is the barrier to 
integrating that on the transcript? As you described some of 
these other duties that folks serving in Iraq and Afghanistan 
are undertaking, duties that are not specific to the particular 
mission of the National Guard or Reserve Unit that are really 
on Nation building responsibilities.
    What is the current barrier to doing that?
    Mr. Chamrin. I don't know if there is a barrier, but there 
are not a lot of mechanisms in place already.
    Ms. Herseth Sandlin. Okay.
    Mr. Chamrin. Because I believe the representative for the 
DoD can better answer this, but I know that for noncommissioned 
officers you have your evaluation reports. And that really 
contains what you do over the course of the year and that is 
also in your personnel records. But if you were just going to 
look in your military transcript then those duties aren't 
involved in your schooling and your education.
    Mr. Cullinan. And Madam Chairwoman, I would like to follow 
up on that, if I may? Something else we were discussing back in 
the office in a similar vein, another obstacle to people in the 
military pursuing a civilian sector job, be it EMT, 
truckdriver, avionic specialist, is there is so much 
uncertainty and differences from State to State as to what is 
required, what you have to do, what you have to do to get a 
license. Do you need a license? Is it simply a certification 
program? What is the educational requirements?
    And what occurs to us is that years ago there was a similar 
situation, about 40, 50 years ago when it comes to things like 
business law. At one point in time every State had it's own 
business law practices. At a certain point in time a group of 
lawyers and business professionals got together and came 
together with a solidified code of business law and ethics. And 
it wasn't imposed from the Federal Government on down. It was 
simply made available for adoption. And eventually that is what 
the States did.
    And I think there is something similar to happen along with 
the construction code. At one point every State had a different 
code, well engineering and other experts got together, came up 
with a code, presented it, made it available to the States for 
adoption. That is eventually what they did. And perhaps 
something along that line needs to be done with respect to 
credentialing and certification as well.
    I realize it goes outside of the purview of this Committee. 
It is a bigger issue than that. But what we are talking about 
is addressing an issue that touches the military and the 
civilian sector. We need some kind of unified code. We need the 
experts to get together and devise it and hopefully the States 
would adopt it.
    Mr. Weidman. I think the major impediment is that nobody 
thinks it is their job. Now the military's prime job is 
defending a nation. And the job of the military is to kill 
people and destroy property. That is what we do. And training 
and everything that contributes to forced readiness to be ready 
to be at optimum strength to defend the Nation is the job of 
the military. But they don't see it as their job about what 
happens when people separate. But it needs to be defined as a 
national defense question. If you can't pay because our economy 
is faltering for that defense machine, then we are in deep, 
deep trouble.
    So the question is, is it part of the job of the military 
to assist in an active way with the certification? The answer 
is yes. Is it--should it be them taking the lead? If DoD does 
it, the people will start to listen. I am going to suggest that 
Labor, that role needs to be defined and Labor needs to 
exercise some proactive leadership for a change.
    And I would also suggest that the private business sector, 
and that is why I keep suggesting the Chamber, not just because 
I am very familiar with it, but when the U.S. Chamber speaks, 
people listen. They represent the backbone of the engine that 
creates jobs and creates wealth in this country. And NFIB, 
National Federation of Independent Business, National Small 
Business United, they will all follow in the wake if in fact 
you get the Chamber moving. And we would be glad to help 
facilitate meetings with key people at the Chamber beginning as 
early as next week at the Institute for Competitive Workforce.
    But what the Congress can do is define it, and get DoD to 
accept it as a role that they need to follow through on to 
credential all those people on the way out the door or to 
assist. And to achieve those many different agreements with the 
53 jurisdictions for the certification and with the various 
professions that has to be the Department of Labor to take it's 
job seriously, to remove what is now a barrier to employment 
and in the barrier to fullest possible employment of the skills 
that we have spent billions to impart to these young men and 
women separating from the military.
    Mr. Chamrin. And one thing that I think we forgot to add 
is, we are of the opinion that this will be a great recruitment 
and then retention tool. You can recruit people into the 
military if you are able to get a license when you leave the 
military. And then if you were to--if you chose to re-enlist, 
you know, it is usually senior NCOs and upper level captains or 
above who get the more technical certifications and skills-
sets. So if they chose to remain in the military because they 
are able to get this stuff while in the military, you can aid 
in the retention of your total volunteer force.
    Ms. Herseth Sandlin. Along that line, let us take just 
recruitment and retention within the National Guard over the 
last few years. Are any of you aware of any State Governor that 
has looked into coordinating with his or her National Guard 
adjutant to do precisely that?
    Mr. Chamrin. I don't have any numbers. It is not because 
they are not out there, I just haven't researched it.
    Ms. Herseth Sandlin. Okay. I think it might be helpful that 
we all look into that issue. Perhaps there is a model whereby 
someone got creative on the State level with National Guard and 
Reservist in their recruitment goals to coordinate the 
licensing from State Boards with the training that is happening 
in a transportation company, for example.
    Let me ask one other question. Mr. Boozman, do you have a 
followup question? Okay.
    Mr. Chamrin, you have recommended expanding Montgomery GI 
Bill benefits. Have you approached the VA or other VSOs 
regarding this recommendation to expand the MGIB benefits to 
include the examinations and preparatory courses for licensing 
and certification requirements?
    Mr. Chamrin. It is loosely. We do have a resolution that 
says MGIB should be used for all education. And then that 
covers all the licensing, certification, and tests associated 
with that.
    But formally approaching the VA, we have not.
    Ms. Herseth Sandlin. Okay. Mr. Cullinan or Mr. Weidman, 
would your organizations----
    Mr. Cullinan. We have a similar resolution----
    Ms. Herseth Sandlin. Okay.
    Mr. Cullinan [continuing]. Calling for it to cover. And we 
also support portability for the Guard and Reserve.
    Ms. Herseth Sandlin. Yes.
    Mr. Cullinan. That is a key obstacle right now. And for, as 
you know, that falls under Title 10. So that is, there is 
another problem. There is legislation out there to address that 
issue but I will stop there.
    Mr. Weidman. VA is committed to getting Senator Webb's bill 
passed on both sides of the Hill and to folding Senator 
Lincoln's provisions in there for the Guard and Reserve and to 
expanding the entrepreneurial training and vocational training 
and on-the-job training aspects of a brand new GI Bill for the 
21st century.
    Ms. Herseth Sandlin. Thank you. Mr. Boozman.
    Mr. Boozman. No.
    Ms. Herseth Sandlin. Okay. We want to thank all of you for 
your testimony.
    Mr. Boozman. Thank you.
    Ms. Herseth Sandlin. We hope you will be able to stay and 
then we will perhaps have time to visit with you after the 
hearing to start coordinating some followup discussions on this 
issue.
    I would now like to invite our witnesses on the second 
panel to the witness table.
    Joining us on our second panel of witnesses are frequent 
visitors as well. Ms. Leslye Arsht, Deputy Under Secretary of 
Defense for Military Community and Family Policy in the U.S. 
Department of Defense; Mr. John McWilliam, Deputy Assistant 
Secretary for Veterans' Employment and Training Services in the 
U.S. Department of Labor; and Mr. Keith Wilson, Director of 
Education Service for the Veterans Benefits Administration in 
the U.S. Department of Veterans Affairs.
    Your complete written statement has been made part of the 
record. Ms. Arsht, you are recognized for 5 minutes.

   STATEMENTS OF LESLYE A. ARSHT, DEPUTY UNDER SECRETARY OF 
             DEFENSE (MILITARY COMMUNITY AND FAM- 
  ILY POLICY), U.S. DEPARTMENT OF DEFENSE; JOHN M. McWILLIAM, 
 DEPUTY ASSISTANT SECRETARY, VETERANS' EMPLOYMENT AND TRAINING 
    SERVICE, U.S. DEPARTMENT OF LABOR; AND KEITH M. WILSON, 
DIRECTOR, EDUCATION SERVICE, VETERANS BENEFITS ADMINISTRATION, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

                   STATEMENT OF LESLYE ARSHT

    Ms. Arsht. Thank you. Thank you, Madam Chairwoman. Thank 
you for the opportunity to discuss the progress that we have 
made, the Department of Defense, and the Military Services in 
providing information and assistance to servicemembers 
regarding licensure and credentialing.
    Returning to private life after serving in the military is 
a very complex undertaking. When separating, retiring, or being 
released from active duty, the transitory servicemember's most 
immediate goal is finding a job, accessing education to change 
careers, and ultimately improving his or her long-term economic 
quality of life.
    The Department recognizes that the attainment of a civilian 
credential is important to the servicemember's transition to 
comparable civilian employment. Great progress has been made in 
providing transition assistance during the past year. We have 
succeeded in providing licensing and credentialing information 
in a range of ways and in different formats in order to appeal 
to individual learning styles and ensure the widest possible 
dissemination.
    The information is provided through classroom delivery from 
an instructor, by online interaction, and through one-on-one 
coaching so that servicemembers have the latest most accurate 
information about transition assistance benefits available at 
their fingertips in order to make informed decisions about 
their future.
    An integral aspect of licensure and credentialing is it is 
being introduced to servicemembers early in their careers, not 
just at the time of separation. But let me start with the 
Transition Assistance Program (TAP). Transitioning 
servicemembers and demobilizing National Guard and Reserve 
personnel are provided information about licensure and 
certification through TAP, our traditional Transition 
Assistance Program. Now that offering is greatly enhanced by 
TurboTAP, our newest transition portal developed in 
collaboration with the Department of Labor and the VA.
    TurboTAP's Pre-separation Guide for Active Component 
Servicemembers, a Transition Guide for the Guard and Reserves 
provides a wealth of information about credentialing programs. 
Through TurboTAP's Employment Hub, servicemembers can access a 
section entitled, ``Translating your Military Skills.'' This 
hub also links to the Military Occupational Classification 
Skills Translator which helps military personnel translate 
their military specialties to civilian occupations.
    Because we recognize that young servicemembers today are 
very savvy when it comes to technology, we have made the site 
easy to navigate and have deliberately placed access to 
information in multiple locations on the site. It is all there 
at their fingertips and accessible 24/7. I think you will agree 
that the Military Services have significantly augmented their 
focus on licensure and credentialing as well. The Army and Navy 
have conducted extensive research to link each of the military 
occupational specialties and Navy ratings to civilian jobs and 
applicable civilian licenses and certifications.
    Through the Army and Navy Credentialing Opportunities On-
line Web site referred to as ``COOL'' soldiers and sailors are 
provided access to comprehensive information about 
certification and licensure. This site helps them understand 
what it takes to obtain the corresponding credentials and 
identifies resources that will help pay credentialing fees.
    Air Force emphasis on licensure and certification is linked 
to associate degrees it provides to its enlisted force through 
the Community College of the Air Force. The Air Force has 
structured these degree programs to replicate certification 
requirements for careers in the civilian sector.
    The Marine Corps uses a variety of existing public and 
private sector resources to assist servicemembers with 
licensure and credentialing and funds one accredited 
certification per marine for those who don't have a college 
degree. Marine Corps Transition Assistance Management Program 
personnel are Certified Workforce Development Professionals who 
counsel marines one-on-one, helping to translate their military 
experience and training into information relevant to 
corresponding civilian careers.
    The Department has stepped forward to take this commitment 
yet a level higher. As part of the commitment made in the Task 
Force Report to the President on ``Returning Global War on 
Terror Heroes'' a special DoD-DoL Credentialing Working Group 
is in the process of collecting and collating data on all 
occupational specialties by military service including National 
Guard and Reserves based on how many people are in each 
specialty. The Department will use the outcome of this study to 
identify adjustments that can be taken within the relevant 
Service Schools to potentially generate certifications in 
corresponding private sector jobs.
    We acknowledge the importance of providing servicemembers 
clear and definitive information on licensure and credentials 
at many points in their military careers. Providing this 
information early on allows servicemembers to plan and seek out 
any additional required classes they need to complete and meet 
civilian occupational requirements and their goals.
    Madam Chairwoman, on behalf of the men and women in the 
military today and their families, I thank you and the Members 
of this Committee for your steadfast support during these 
challenging times. Thank you.
    [The prepared statement of Ms. Arsht appears on p. 31.]
    Ms. Herseth Sandlin. Thank you very much. Mr. McWilliam, 
you are recognized.

                 STATEMENT OF JOHN M. McWILLIAM

    Mr. McWilliam. Madam Chairwoman and Ranking Member Boozman, 
I appreciate the opportunity to talk with you today about the 
role of the Department of Labor in helping transitioning 
servicemembers and veterans in obtaining the licenses and 
certifications required for civilian jobs. Our Nation needs an 
increasingly skilled workforce. We recognize that the skills 
obtained during an individual's military service can meet the 
needs of the civilian workforce.
    Since the start of the Global War on Terror, the Department 
of Labor has increased it's focus on servicemembers 
transitioning from military to civilian employment. Our 
strategy is three-pronged. First, we work with the Department 
of Defense to get more troops to the Transition Assistance 
Program employment workshops. TAP is our earliest opportunity 
to identify transitioning servicemembers that might need help 
in obtaining licenses and certifications. That is one of the 
topics covered during the workshops.
    Second, we are educating servicemembers and employers on 
their rights and responsibilities under the Uniformed Services 
Employment and Reemployment Rights Act (USERRA) and vigorously 
investigating complaints under the law.
    And, finally, we reach out to employers through our 
national ``HireVetsFirst'' Campaign, which highlights the value 
veterans bring to the workforce.
    In April of 2006, a joint Departments of Defense and Labor 
Credentialing Work Group was formed to coordinate our efforts 
on licensing and certification. The Work Group has incorporated 
the guidance of Public Law 109-461. The group is focusing on 
military occupations that comprise a high proportion of exiting 
servicemembers and that can be matched to high-demand 
occupations in high-growth industries.
    The Work Group will assess the instruction used to train 
servicemembers and contrast it to the civilian training that 
leads to credentialing. Working with the Service Schools and 
industries, the group will determine what military training is 
relevant to certification for civilian occupations. Since the 
enactment of Pubic Law 109-461, we have worked to identify 
funding to support the authorized demonstration. We are 
currently developing a competitive Solicitation for Grant 
Applications using available program year 2007 funding that 
will support a demonstration program for one MOS. The program 
will last for 3 years. We intend to request additional funding 
in the future years that will allow this single demonstration 
program to expand to the authorized 10 MOSs.
    In addition, we intend to include licensing and 
certification for transitioning servicemembers as part of VWIP, 
the Veterans' Workforce Investment Program, funding for program 
year 2009. Currently, many of our VWIP grantees include 
licensing and certification as part of their services, but they 
base that on the individual's employment plan and military 
experience. The new effort under VWIP will support the Work 
Group by focusing on the Military Occupational Specialties 
rather than the individual veteran.
    In addition, Department of Labor has worked with business 
groups and other organizations to acquaint them with military 
training and ease the transition to a civilian credential.
    Madam Chairwoman, this concludes my statement. I will be 
pleased to respond to any questions.
    [The prepared statement of Mr. McWilliam appears on p. 34.]
    Ms. Herseth Sandlin. Mr. McWilliam, thank you. Mr. Wilson 
you are recognized for 5 minutes.

                  STATEMENT OF KEITH M. WILSON

    Mr. Wilson. Thank you. Good afternoon, Chairwoman Herseth 
Sandlin and Ranking Member Boozman. I appreciate the 
opportunity to appear before you today to discuss VA's 
education benefits for licensing and certification testing.
    My testimony will address the details and background of the 
program for beneficiaries of the Montgomery GI Bill Active 
Duty, Selected Reserve, Reserve Educational Assistance Program, 
and Dependents Educational Assistance Program as they relate to 
licensing and certification exams.
    While licensing and certification test reimbursements 
constitute a small portion of our overall payments, they 
nonetheless play a vital role in helping veterans and 
servicemembers make the transition from military to civilian 
life. An individual eligible for MGIB-active duty or Dependents 
Educational Assistance Program benefits can receive 
reimbursements for licensing and certification tests taken on 
or after March 1, 2001. Individuals eligible for MGIB-selected 
reserve and the Reserve Educational Assistance Program can 
receive reimbursements for licensing and certification tests 
taken on or after January 6 of 2006.
    We do not consider Military Occupational Specialties when 
determining who gets reimbursed for taking an exam. The maximum 
education benefit payment per approved test is $2,000. There is 
no limit to the number of tests that may be taken, except that 
an individual cannot exceed his or her maximum education 
benefit entitlement.
    It is not uncommon for an individual to take a series of 
tests. For instance, a veteran or servicemember may take a 
series of exams to certify programming skills in different 
types of computer languages. Currently, there are over 4,300 
exams approved for reimbursement benefits. Since the inception 
of the program, VA has made approximately 31,500 payments to 
14,300 individuals with an average reimbursement of $408 per 
exam.
    Recognizing the importance of licensing and certifications, 
VA has appointed an individual with expertise in these areas to 
serve as a member of the Veterans Advisory Committee on 
Education. This individual provides advice concerning licensing 
and certifications and how these benefits assist in the 
transition from military to the civilian workforce.
    We believe the continued provision of benefits for 
licensing and certification tests will play a valuable role in 
assisting eligible individuals with their readjustment to 
civilian life and prepare them for the critical roles in the 
twenty-first century.
    Madam Chairwoman, this concludes my statement. I would be 
pleased to answer any questions you or other Members may have.
    [The prepared statement of Mr. Wilson appears on p. 36.]
    Ms. Herseth Sandlin. Thank you, Mr. Wilson. Thanks to all 
three of you for your testimony. Mr. Boozman.
    Mr. Boozman. Mr. McWilliam, did you say that you had 
identified the areas that you were going to look at as far as 
the professions in the pilot.
    Mr. McWilliam. There are two aspects, Mr. Boozman. One is 
the credentialing Work Group you will have with the Department 
of Defense. They are in the process of identifying all of the 
MOSs to look at. As soon as we have that information from them, 
we will use it to choose one of the first MOSs for the Veterans 
Workforce Investment Program Solicitation for Grant 
Applications later this year.
    Mr. Boozman. Okay. Good. I really would like to sit down 
with--because it is a complicated thing, you know. You have the 
unions involved. You have, in the case of medicine, where you 
have all 50 States, 53 entities, it is confusing. So that is a 
whole different deal. Like I said with plumbing, things like 
that, the unions are heavily involved. You have the unions 
involved with truck driving and you have the independent 
operator, that are very much not involved.
    And so, if we could identify maybe, if you could give us a 
list of professions that you know you feel like are going to be 
there. And maybe you have some others that are on the border, 
and you know if you are--but if we could get a few and just 
kind of work through it and get the parties involved around a 
table and just really go back and forth with really just 
discussing it. You know how it works so that we can all 
understand.
    I think that would be real helpful and again that is 
something that you know we will talk to our Chair about and see 
if that is a possibility.
    I don't have a lot of questions, but we just need to go 
forward with this. And it is just a matter of getting it done. 
As I said, we have the different things. We have the difference 
of the credentialing when you are in the service. You have 
issues of where we can figure out how to get the credential, 
then taking that credential and then getting licensed by a 
State.
    And also in other professions having that credential and 
then getting credit for the time that you have driven. I am 
saying driven in the case of a truckdriver or whatever, a 
plumber is another example. The fact that you have performed as 
a master plumber for several years in the service. We would 
like to see when they go into the private sector, after the 
credentialing is squared away, that they get credit for that.
    There are some things, again I think the truck driving is 
just an easy example. You can be a great truckdriver in the 
military and yet there are civilian rules that you have to show 
that you have a knowledge of things. We are really committed to 
do--I would like to move the thing forward. I would like to 
have a regular update on the progress of the pilot as to what 
we are doing, where it is going, what we have accomplished. And 
again, see if we can get this thing done.
    Mr. McWilliam. You point out some very good things, Mr. 
Boozman. There are different ways to attack each one of these 
occupations. The one that you have mentioned, transportation, 
we have been working quite closely with some trucking companies 
who have a great shortage in drivers and are in need of 
drivers. And they have been working to attempt State by State 
to change the rules to allow military experience and training 
to count. So it is a very good point.
    Mr. Boozman. Let me just ask one thing real quick. The 
Legion mentioned the Council of Licensure Enforcement and 
Regulation. Do you all have knowledge of this organization? Are 
you dealing with that? Or?
    Mr. McWilliam. I don't off hand. Mr. Boozman, I do not have 
that information today, but I can get back to you on whether or 
not we have had dealings with them.
    [The information follows:]

          The Department of Labor's Veterans' Employment and Training 
        Service (VETS) looked into this further and they have had no 
        contact nor did they seek out the Council of Licensure, 
        Enforcement and Regulation. This organization does not deal 
        with issues that might affect the trucking industry, as their 
        transportation issues surround transportation for hire such as 
        the taxicab industry.
          The Council deals with professional practice services such as 
        nursing, dentistry, doctors, certified public accountants, 
        etc., which require individual State licenses to practice in a 
        particular State or local government entity.

    Mr. Boozman. Okay. Good. Very good. Okay. Again, thank you. 
It is a very doable thing, though, but we have just got to move 
forward. And I think the pilot program really will be a good 
vehicle for us really to kind of root out all these different 
little problems. But I do think that the Department of Labor is 
going to have to be at the forefront of, as was stated by the 
earlier group, at the forefront. Somebody has to have ownership 
of this. And so, that is the key.
    And I think that you all are the people that would 
logically be the people to have ownership.
    Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman. Mr. McWilliam, 
the joint Credentialing Work Group thus far has accomplished 
what? Is the process of identifying the relevant MOSs based on 
the highest level of unemployment for people with those MOSs? 
How are you going about identifying the most appropriate ones 
that need attention here?
    Mr. McWilliam. Madam Chairwoman, the Work Group has been 
looking at the number of people in those MOSs in the military 
and matching them to the high-growth industries, which are the 
occupations that we have identified as high-growth industries 
within the United States to put the two of them together.
    Ms. Herseth Sandlin. Right. Is that the same as the 
President's High Growth Job Training Initiative, the same 14 
identified sectors?
    Mr. McWilliam. Yes.
    Ms. Arsht. We are actually looking at the top 10 MOSs of 
the population. The highest top 10 that have military people in 
them and correlating them to the high-growth need. Part of the 
complication is, as one person on the earlier panel said, the 
largest MOS is Combat Arms. What we have found in the Working 
Group is that we needed to be able to do exactly what the 
panelist suggested, which is look at the sub-specialties within 
that MOS to be able to align it to civilian demand.
    So for instance, someone who had been in their career in 
Combat Arms, the large number of them would become technical 
trainers and technical trainers are in high demand in the 
civilian workforce. So that would be a sub-specialty of Combat 
Arms that could have a credential aligned to it.
    Ms. Herseth Sandlin. I don't want to second guess how you 
have structured this. I do hope that you will, to the extent 
possible. In other Subcommittee hearings, we have talked about 
whether it is in education benefits, whether it is other areas. 
We have made reference to the President's High Growth Job 
Training Initiative in the past.
    To the extent that you can have that as a point of 
comparison so that we are not deviating entirely from that 
initiative, but looking for as much common area----
    Ms. Arsht. Right.
    Ms. Herseth Sandlin [continuing]. Reaching all these 
various objectives----
    Mr. McWilliam. Certainly.
    Ms. Herseth Sandlin [continuing]. With some kind of nucleus 
that we are working around.
    When do we anticipate that they will identify, finish 
identifying those relevant MOSs so that the demonstration 
project can begin? Can you give us some sort of timeline? I 
agree with Mr. Boozman that regular updates on the process 
would be helpful, especially if we are going to be working in 
conjunction, in a roundtable fashion, to have that information.
    Can you provide a timeline for us for when this will be 
complete?
    Ms. Arsht. We expect to have identified MOSs by the end of 
the year.
    Ms. Herseth Sandlin. Okay. Mr. McWilliam, if they are 
identified by the end of the year, then how much lead time do 
you need to actually get the demonstration project underway? 
How long do you anticipate that taking?
    Mr. McWilliam. Madam Chairwoman, we plan to go ahead and 
write the Solicitation for Grant Application and just fill in 
the blanks when we identify the MOSs. So at the start of the 
year, and we have anticipated making the award in early 
springtime.
    Ms. Herseth Sandlin. Okay. Mr. Wilson, when was the last 
time we updated the $2,000 limit for use of taking a licensure 
certification exam?
    Mr. Wilson. I will have to get back to you. I don't have 
the date on that.
    Ms. Herseth Sandlin. Okay. Do you have any thoughts if the 
average, as you have stated in your testimony, was $408 on the, 
I think was it 35,000? I can't remember the number of veterans 
you identified that have utilized----
    Mr. Wilson. Roughly 14,000, I believe.
    Ms. Herseth Sandlin. Fourteen thousand.
    Mr. Wilson. About 35,000 separate tests for roughly----
    Ms. Herseth Sandlin. Okay.
    Mr. Wilson [continuing]. Fourteen thousand individuals.
    Ms. Herseth Sandlin. Does the VA have a position on whether 
or not the remaining almost $1,600 could be applied toward 
preparatory courses in taking those exams?
    Mr. Wilson. We have not looked into that at all. I would 
add, though, that for the great majority of the training that 
is needed to qualify for the fields that we are talking about, 
VA does pay for the training for that. For example, if an 
individual is looking to be certified as an EMT, in all 
likelihood that individual has gone to a community college for 
the EMT training, which was paid by the GI Bill.
    The one small segment that we do not pay for are study 
courses specifically geared toward an examination. So it would 
be a very small segment that we would be looking at. But, 
again, we have not looked at that specifically.
    Ms. Herseth Sandlin. Okay.
    Ms. Arsht. But DoD's Voluntary Education does cover course 
work. So, servicemembers can draw from the different programs 
to support getting their credentials. We cover course work in 
voluntary education and the GI Bill covers the certification, 
licensing fee.
    Ms. Herseth Sandlin. Okay.
    Mr. Wilson. I would be happy to investigate that a little 
bit further though, concerning how we could take, for instance, 
DoD's experience and apply it to veterans and see what we could 
do to provide reimbursement for those.
    Ms. Herseth Sandlin. Well, I think that would be helpful. 
First, it brings us back to the point that Mr. Chamrin was 
making on the training. You know where you have benefits that 
apply to training, are we being duplicative? In terms of the 
training they have already received on active duty and finding 
a way to streamline that training.
    If you could work to see what they are doing. I also think 
we should be open and that would lead to another question that 
I will submit to you in writing: If we can track the number of 
veterans who are taking these exams and how many are passing.
    I think that would lead us in a direction of having 
additional information to determine whether or not that other 
money, that $1,600 should be applied to preparatory courses. In 
terms of just those of us that take exams to pass the State bar 
exam and everything, they are useful reviews of some of the 
more technical information and sometimes will be a benefit in 
taking those exams.
    Mr. Wilson. We would be happy to look at that.
    Ms. Herseth Sandlin. Okay. One final question and then 
there will be others that I will submit in writing.
    I think that the Ranking Member and his counsel were 
visiting about this a little bit too as it relates to TAP. I 
think Mr. McWilliam you mentioned that TAPs provide the 
earliest opportunity to identify veterans who may need 
assistance in licensure and credentialing.
    We know it is not mandatory, so we know we may be losing 
some there, but is that too late? TAP gets us back to the issue 
of can we somehow integrate earlier in one's military career in 
a way in which to identify those MOSs that have the highest 
level of unemployment or the most difficulty in getting their 
military training and experience to match up with jobs in the 
civilian sector?
    Do any of you have any thoughts on that issue?
    Ms. Arsht. Actually the Army is engaged in this process, 
and has for a year included promotion points for certification 
during active duty in line with your military career. And Navy 
is doing this as well, in fact Navy has a credential aligned to 
each one of it's rating levels.
    So we are getting more and more closely aligned and 
beginning to discuss this very early in the military career. 
And we do see this discussion, understanding what career track 
you are on and how that career might advance through your 
military career and how it aligns to what your civilian 
opportunities are, as part of a retention process.
    One of the best examples I think of this is in the IT area 
where most of the young people coming into IT recognize that 
there are commercial certifications that they need that are 
very valuable when they move into the civilian world. And so 
they can acquire them during their active-duty period.
    And so we believe that this conversation is getting bolder 
earlier because it works both for your military career and 
after the servicemembers have left us.
    Ms. Herseth Sandlin. Mr. Boozman, do you have any followup 
questions?
    Mr. Boozman. No. The only thing I would comment, I think 
your comment about looking at the test, looking at the courses 
that help you prepare for tests--I guess my thing is, to me, we 
really want stuff that is going to help people be successful 
and complete their courses and it is just a different ball game 
now. You know, those kind of things have almost become part of 
the curriculum, to be successful.
    And so, I also think I would really encourage you to look 
at those, and make sure we are doing the right thing in that 
regard. But that is something that is very helpful that again 
can help people that have worked very hard to go ahead and 
complete that last step and be successful in what they are 
trying to do.
    Thank you all very much for being here.
    Ms. Herseth Sandlin. Yes, I want to thank you all, as well 
as our witnesses on the first panel, again for your insight, 
your testimony, and your ideas today. We always value it and 
the ongoing service that you are providing for our Nation's 
veterans. We'll look forward to seeing you again soon.
    Again, thank you for the testimony. The hearing does stand 
adjourned.
    [Whereupon, at 3:24 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

         Prepared Statement of Hon. Stephanie Herseth Sandlin,
            Chairwoman, Subcommittee on Economic Opportunity
    Over the past year, our Subcommittee has focused most of its energy 
on employment related issues ranging from transition assistance for 
servicemembers, small business opportunities for veterans, and 
employment within the Federal Government.
    In today's hearing we will continue to examine these issues, and 
hear valuable insight as to how to better provide veterans and 
returning servicemembers with the resources to make the transition back 
to civilian life and receive the opportunities that they deserve.
    I look forward to hearing from veteran service organization 
representatives on concerns their members have encountered when seeking 
certification or licensing in the civilian sector, to include enforcing 
laws to ensure those responsible are doing their job. I also look 
forward to hearing about the possibilities of expanding existing laws 
to provide more opportunities and resources to our Nation's veterans 
seeking ways to start new careers in the civilian sector.
    Throughout my tenure in Congress, I have been approached by several 
of my constituents to find ways to improve on existing laws, such as 
the Montgomery GI Bill. It is my belief that this Subcommittee has the 
opportunity to work together on these issues with veteran service 
organizations, our colleagues in the Senate and Administration 
officials. This Subcommittee and this Congress have a responsibility to 
help bridge the gap between military service and veteran status, and 
assist these brave men and women transition back to the civilian sector 
to pursue new educational opportunities, start new careers and 
establish themselves in the communities that they helped protect.

                                 <F-dash>
                Prepared Statement of Hon. John Boozman,
    Ranking Republican Member, Subcommittee on Economic Opportunity
    Good afternoon, Madam Chairwoman, and thank you for highlighting 
the need to improve opportunities for veterans to have their military 
training and education counted toward qualifying for civilian 
occupations.
    As you remember, we authorized the Veterans Employment and Training 
Service to conduct a pilot licensing and certification project. I am 
eager to hear what progress VETS has made toward implementing that 
authority.
    I am also concerned that the continuum of responsibility beginning 
with the Military Services, through the Department of Labor and VA, and 
ending with the States has never been solidified. Without making the 
connections, veterans will continue to experience delays in qualifying 
for civilian occupations for which they have been trained during 
military service. The taxpayers will also see valuable training dollars 
and experience wasted.
    States bear a measure of responsibility, too. By setting 
qualification standards for everything from commercial drivers' 
licenses to teachers and physicians, States are the final arbiter of 
whether military training will count toward qualifications.
    I am disappointed that the National Governors' Association was not 
able to be with us today and I hope they will come talk to us soon 
about their role in this issue.
    Madam Chairwoman, I yield back.

                                 <F-dash>
                Prepared Statement of Ronald F. Chamrin,
        Assistant Director, Economic Commission, American Legion
    Madam Chairwoman and Members of the Subcommittee:
    Thank you for this opportunity to present The American Legion's 
view on the licensure and credentialing of servicemembers and veterans 
to the Subcommittee today.
    The American Legion asserts that veterans have been trained, 
educated, disciplined, and molded by the greatest military the world 
has ever seen and yet a large number of these skills are deemed non-
applicable in the civilian sector. The Department of Labor's Hire Vets 
First lists attributes that make veterans marketable to the civilian 
sector. The American Legion strongly agrees that veterans have 
attributes to make them extremely productive in the civilian sector. 
These attributes include an accelerated learning curve, leadership, 
teamwork, diversity and inclusion in action, efficient performance 
under pressure, respect for procedures, technology and globalization, 
integrity, conscious of health and safety standards, and the ability to 
triumph over adversity.
    With all of these abilities, a casual observer would assume that 
veterans are easily employed and can transition their military 
experience to the private sector with ease. Unfortunately, that is not 
the case.
    The American Legion supports efforts to eliminate employment 
barriers that impede the transfer of military job skills to the 
civilian labor market and that the Department of Defense take 
appropriate steps to ensure that servicemembers be trained, tested, 
evaluated and issued any licensure or certification that may be 
required in the civilian workforce.
    The American Legion supports making the Montgomery GI Bill 
eligibility available to pay for all necessary civilian license and 
certification examination requirements, including necessary preparatory 
courses. We also support efforts to increase the civilian labor 
market's acceptance of the occupational training provided by the 
military.
MILITARY TRAINING
    The Department of Defense (DoD) provides some of the best 
vocational training in the nation for its military personnel and 
establishes, measures and evaluates performance standards for every 
occupation with the armed forces. There are many occupational career 
fields in the armed forces that can easily translate to a civilian 
counterpart; additionally, there are many occupations in the civilian 
workforce that require a license or certification.
    In the armed forces, these unique occupations are performed to 
approved military standards that may meet or exceed the civilian 
license or certification criteria. Upon separation, many former 
military personnel, certified as proficient in their military 
occupational career, are not licensed or certified to perform the 
comparable job in the civilian workforce, thus hindering chances for 
immediate civilian employment and delaying career advancement. This 
situation creates an artificial barrier to employment upon separation 
from military service.
    A study by the Presidential Commission on Servicemembers' and 
Veterans' Transition Assistance identified a total of 105 military 
professions where civilian credentialing is required.
DEPARTMENT OF VETERANS AFFAIRS IMPACT IN LICENSURE AND CREDENTIALING
    The American Legion applauds the fact that since January 6, 2006, 
all eligible veterans using the Montgomery GI Bill Active Duty (MGIB-
AD, Title 38, Chapter 30), Selected Reserve (MGIB-SR, Title 10, Chapter 
1606), Veterans Education Assistance (VEAP, Title 38, Chapter 32), 
Dependents Educational Assistance (DEA, Title 38, Chapter 35) and the 
Reserve Education Assistance Program (REAP, Title 10, Chapter 1607) can 
now receive reimbursement for licensing and certification tests.
    However, the government is paying twice and sometimes three or more 
times for training and licensing for the same task. DoD spends billions 
of American tax dollars each year training members of the military. 
Some civilian skills are very similar in nature to those duties 
performed while in the military, yet taxpayers may be funding training 
twice for the same individual through DoD and then the VA. This is 
financially irresponsible and counterproductive to individual veterans 
who must use their earned MGIB education benefits to take civilian 
proficiency tests.
    Most licenses or certifications have fees associated with them that 
are charged by the credentialing board. Some of the typical fees paid 
directly to a credentialing board include

    <bullet>  Application Fees--from $20 to $200
    <bullet>  Exam Fees--from $20 to $200
    <bullet>  Renewal Fees--from $10 to $150 (typically renewed every 1 
to 3 years)

    The American Legion also notes that those veterans who have been 
Reservists called to active duty are losing their earned education 
benefits once they complete their service contract, therefore, they 
must find alternative means for funding.
    Ninety thousand members of the Reserve component are entering the 
civilian sector each year. The most visible example of this unjust 
denial of benefits is the demobilization of 2,600 members of the 
Minnesota National Guard who have just performed the longest, 
continuous combat tour in Iraq of any military unit to date. Mobilized 
for 22 months, they are ineligible to enroll in MGIB-AD because they 
fall short of the required 24-month deadline by 2 months. This travesty 
is not unique to these guardsmen and passing of the Total Force GI Bill 
would at least allow members of the Reserve components to apply their 
earned benefits toward licensing and certification exams.
MILITARY TRANSCRIPTS
    Military transcripts provided from each of the Armed Forces provide 
a very limited training and education record and at times incorrect, 
missing, or additional information is listed. The Army Training 
Requirements and Resource System (ATRRS), Navy's Sailor Marine American 
Council of Education (ACE) Registry Transcript (SMART), and the Air 
Force Institute of Advanced Distributed Learning (AFIADL) are all 
accepted by the American Council on Education.
    Once again, highlighting the Guardsmen of Minnesota, (many of them 
infantry), these servicemembers have enormous talents, skills, and 
attributes that they have used while in theater. However, because the 
tasks they performed are so unique and difficult to succinctly 
describe, they are left with an empty shell of a resume.
    When transitioning military careers to civilian careers, many 
servicemembers can only list 11-B, Infantryman. It would be more 
advantageous if they can write 
11-B, Infantryman, chief advisor to mayor of Iraqi town, facilitator of 
incubator maintenance at local hospital, and more specified individual 
tasks. They, along with hundreds of thousands of OIF and OEF veterans, 
have performed duties that could fall in line with many civilian 
professions. If a system is devised that can translate to the full 
nature of a servicemember's skills and abilities (as opposed to only 
listing a military occupation code) individual veterans would be 
positively affected.
ONLINE ASSISTANCE
    There are so many Web sites for servicemembers and veterans to 
visit that it can become extremely confusing and complex. The Army and 
Navy COOL (Credentialing Opportunities Online) Web sites are excellent 
tools for potential recruits, current servicemembers, and transitioning 
veterans to use. The Air Force Personnel Center is also a useful tool. 
The Career One Stop and the Operational Information Network Online, or 
O*Net, both operated by the Department of Labor, are more helpful 
tools.
    These sites should be made easily accessible at all recruitment and 
transitioning stations. However, for those individuals who are 
constrained for time, have limited Web access, are deployed overseas, 
and those with poor Internet savvy, these Web sites are just not 
enough. The American Legion recommends more access of licensing and 
credentialing services at TAP sites.
ACCESS AT TRANSITION ASSISTANCE PROGRAM FACILITIES
    The American Legion observes that transition assistance modules are 
excellent avenues for each individual U.S. State to access 
transitioning servicemembers. The American Legion supports mandatory 
TAP for transitioning servicemembers at least 180 days prior to the end 
of their contractual obligation. When servicemembers are at these TAP 
sites around the country, each State workforce agency or credentialing 
board can provide important information.
    Better coordination, communication and interaction of credentialing 
boards and the training commands of each of our Nation s Armed Forces 
are needed. Furthermore, military trainers, doctrine writers, and 
evaluation tests for military skills should coordinate with their 
civilian counterparts and attempt to synchronize military tests with 
their civilian counterparts.
    The majority of the onus and responsibility is on the veteran to 
contact authorization boards to ascertain what they will require to be 
successful in the profession that they choose. However, these boards 
should have two-way communication so that the onus is not completely on 
the veteran, especially in a time of war when they are focusing on 
their immediate tasks.
    The Council of Licensure, Enforcement and Regulation has a database 
of national approving boards. Listed below are selected members of this 
national database. Each TAP site should coordinate with at least the 
following boards to have a representative participate. Additionally, 
each U.S. State regulatory board should also coordinate with TAP 
personnel and brief on transitioning servicemembers the unique relevant 
requirements needed for certification.

    <bullet>  National Association of State Boards of Accountancy 
(NASBA)
    <bullet>  National Council for Architecture Registration Boards 
(NCARB)
    <bullet>  The Federation of Chiropractic Licensing Boards (FCLB)
    <bullet>  National Association of State Contractor Licensing 
Agencies (NASCLA)
    <bullet>  American Association of State Counseling Boards (AASCB)
    <bullet>  National Association of State Boards of Education (NASBE)
    <bullet>  National Council of Examiners for Engineering and 
Surveying
    <bullet>  International Conference of Funeral Service Examining 
Boards
    <bullet>  National Association of Insurance Commissioners
    <bullet>  Council of Landscape Architectural Registration Boards
    <bullet>  National Association of Boards of Examiners of Long Term 
Care Administrators
    <bullet>  Association of Marital and Family Therapy Regulatory 
Boards
    <bullet>  The Federation of State Medical Boards (FSMB)
    <bullet>  National Council of State Boards of Nursing (NCSBN)
    <bullet>  Association of Regulatory Boards of Optometry (ARBO)
    <bullet>  National Association of Boards of Pharmacy (NABP)
    <bullet>  The Federation of State Boards of Physical Therapy 
(FSBPT)
    <bullet>  Association of State and Provincial Psychology Boards
    <bullet>  The Association of Real Estate License Law Officials 
(ARELLO)
    <bullet>  Association of Social Work Boards (ASWB)
    <bullet>  American Association of Veterinary State Boards (AAVSB)

    Web sites and online interaction are great tools but nothing can 
replace personal interaction. Personal visits by representatives of 
national and State boards at TAP sites and training commands can assist 
the transfer of military licensing and certification. At a minimum, 
these boards can provide a pamphlet or information sheet to put into a 
veteran's hand.
CONCLUSION
    There have been estimates that approximately 60% of the workforce 
will retire by 2020 and competent, educated, and capable individuals 
must replace the workforce in order to assure the United States retains 
its competitive edge in the world. The veterans of this Nation make up 
a well-qualified disciplined pool of applicants. Increasing recognition 
of military training by integrating licensing and credentialing must be 
strengthened to assist our country's finest to achieve their 
professional goals.
    Madam Chairwoman and Members of the Subcommittee, this concludes my 
testimony. I appreciate the opportunity to present The American 
Legion's views on these important issues.
                                 <F-dash>
               Prepared Statement of Dennis M. Cullinan,
                Director, National Legislative Service,
             Veterans of Foreign Wars of the United States
    MADAM CHAIRWOMAN AND MEMBERS OF THIS SUBCOMMITTEE:
    On behalf of the 2.4 million men and women of the Veterans of 
Foreign Wars of the U.S. (VFW), this Nation's largest combat veterans' 
organization, I would like to thank you for the opportunity to testify 
today on the above noted subject.
    As cited in the September 2005 ``Study on Coordination of Job 
Training Standards with Certification Standards for Military 
Occupational Specialties,'' our Nation needs an increasingly skilled 
workforce. We would all agree that there is no more a deserving or more 
valuable group of American workers than our Nation's service members 
and veterans. Three key areas governing access to today's high paying 
and highly technical job areas are the following credentials:

       Licensure--Licenses are granted by government organizations to 
regulate the practice of a profession. A license is a mandatory 
credential.
       Certification--Certifications are granted by industry 
stakeholders to attest to an individual's attainment of knowledge and 
skills. A certification is a voluntary credential, but often required 
or preferred by employers.
       Apprenticeship--Registered Apprenticeship is a training system, 
combining on-the-job learning and related instruction, in which workers 
learn the practical and theoretical aspects of a skilled occupation 
leading to a nationally recognized Certificate of Completion of 
Apprenticeship.

    Civilian credentials maximize a servicemember's ability to 
demonstrate that the skills acquired in the military are on a par with 
their civilian counterparts. This results in diminishing the periods of 
unemployment or underemployment that might otherwise occur when moving 
into the civilian workforce.
    We acknowledge that the Military Services have made significant 
strides in addressing civilian credentialing. Even with these 
accomplishments, however, there is no centralized oversight of civilian 
credentialing. For most civilian occupations, there is no single entity 
responsible for all of the aspects of credentialing. There is a lack of 
accreditation of certification agencies and uniform standards and a 
lack of centralized information on certification requirements of 
information on civilian credentialing requirements across occupations. 
This in itself offers a significant impediment to our men and women 
leaving the military from transitioning smoothly into the modern 
civilian workforce environment even though they are often highly 
qualified for particular technical jobs.
    The civilian workforce increasingly relies upon credentialing as a 
way to regulate entry into certain occupations and to promote 
accountability for performance and public safety. Its value to the 
military is also being increasingly recognized. Credentialing offers 
professional growth and development opportunities for individuals in 
the service and has been used by the Military Services for both 
recruiting and retention. Civilian credentialing can be viewed as an 
opportunity for servicemembers transitioning to the civilian workforce 
to demonstrate to employers the comparability and value of their 
military education, training, and experience.
    Occupational credentialing is an official recognition of a process 
of meeting a set of defined standards, generally through education, 
training, experience, and testing. Licensure, certification, and 
Registered Apprenticeships are the primary types of occupational 
credentialing.
    The gaps that exist between requirements for civilian occupational 
credentials and the world class education, training, and experience 
provided by the military continue to make it difficult for 
transitioning military to make a smooth entry into the appropriate 
civilian sector employment.
    Additional challenges to credentialing the servicemember include 
statutory fiscal constraints. Insufficient legal authority exists for 
the Armed Forces to expend appropriated funds for servicemembers to 
acquire civilian/commercial occupational credentials. For example, 
absent specific statutory authority, appropriated funds may not 
generally be used to pay for commercial certifications, although 
appropriated funds may be used to pay for commercially contracted 
training courses that include an examination leading to credentials if 
the examination logically relates to the training and is part of the 
purchase price of the course ``package.'' Reserve forces face 
additional constraints.
    Even with these constraints and challenges, the credentialing 
picture for our servicemembers transitioning into the civilian 
workforce has improved markedly with the current and continuing 
programs of each of the Military Services; and the cooperative efforts 
between the Departments of Labor and Defense.
    It is clear, however, that much more needs to be done, and done 
quickly. The situation is especially urgent not only in the context of 
doing the right thing by our young men and women moving from military 
to civilian lives but in considering that a high number of these 
important jobs are now being carried out by baby boomers. Over the next 
10 years over half of this aging population will be retiring. It is 
very much in our national interests to make sure we have the right 
people in place to assume these very important and highly demanding 
occupations--this is a matter of our collective economic and 
governmental security.
    Madam Chairwoman and Members of this Subcommittee, this concludes 
my testimony, and I would urge you to review attached VFW Resolution 
No. 618 entitled ``Licensure and Certification'' for additional 
recommendations on this topic. I would be happy to respond to any 
questions you may have.
    Thank you.
                               __________
                           Resolution No. 618
                      LICENSURE AND CERTIFICATION

    WHEREAS, every year, over 200,000 members of the armed forces leave 
the military; and

    WHEREAS, skilled servicemembers leaving the armed forces miss out 
on the opportunity to quickly move into a career and/or long-term 
employability because they must undergo lengthy and expensive 
retraining in order to meet civilian licensure and certification 
requirements; and

    WHEREAS, many of those individuals clearly possess the skills and 
knowledge to meet licensing and certification requirements due to their 
military occupations; now, therefore

    BE IT RESOLVED, by the Veterans of Foreign Wars of the United 
States, that we urge a standardized licensure and certification 
requirement be adopted by the appropriate Federal and State agencies; 
and

    BE IT FURTHER RESOLVED, that recently separated servicemembers be 
afforded the opportunity to take licensing and certification exams 
based on existing skills acquired while servicing in the military.

      Submitted by Commander-in-Chief
      To Committee on VETERANS SERVICE RESOLUTIONS

Approved by the 108th National Convention of the Veterans of Foreign 
Wars of the United States.

                                 <F-dash>
               Prepared Statement of Richard F. Weidman,
         Executive Director for Policy and Government Affairs,
                      Vietnam Veterans of America
    Good afternoon, Madame Chairwoman, Ranking Member Boozman and 
distinguished Members of the Subcommittee. Thank you for giving Vietnam 
Veterans of America (VVA) the opportunity to offer our comments 
regarding licensure and certification activities that could, if put in 
place, materially enhance the lives of the men and women retuning to 
civilian lives from today's wars.
    The United States military is still the largest and arguably the 
most effective training institution in America. Skills are taught 
ranging from computer programming to meteorology to flying to allied 
health care professions to language proficiency to public relations to 
virtually anything that one can think of as a type of work or skill 
that would be required in any facet of our society. They do what they 
do very well indeed. Servicemembers are able to acquire extraordinary 
proficiencies and skills even in a short military career. The one thing 
that is generally lacking, however, are ``civilian paper credentials'' 
that document what they know and can do in a manner that is 
transferable and accepted in the civilian economy and the civilian job 
marketplace. This lack often means that extraordinary skill and well 
grounded subject knowledge is often lost to the individual as a 
credential that can be marketed in the civilian world, and thus often 
very expensive training paid for by the American taxpayer becomes an 
economic opportunity loss to the Gross Domestic Product (GDP). It means 
jobs not filled, leadership potential and skills not put to productive 
use, and a general loss to our overall economic growth. Frankly, this 
is an intolerable situation that the Nation can no longer tolerate.
    The need for formal credentialing of skills, knowledge, and 
training acquired in the military in a way that will be accepted in the 
civilian world has been apparent to many for at least 35 years. One of 
the major successes in capitalizing on experience and training began 
with the MEDEX program at Dartmouth College in Hanover, New Hampshire 
to train former Navy Corpsmen and Army Medics as Physician Assistants 
or ``P.A.s'' that began in 1971. The entire profession in medicine now 
known as Physician Assistants really began with that one program. 
Physician Assistants are now widely accepted in civilian medical 
settings, and in the military itself, where there are even P.A.s 
serving as Commanding Officers of Medical Companies. In fact, Physician 
Assistants are highly respected and have a broad range of practice 
almost everywhere in U.S. medicine, except the Veterans Health 
Administration of the Department of Veterans Affairs.
    Two other successes also involved Army Medics, and occurred in the 
late 1980s. One was an effort that began with one of the more forward 
thinking State Directors in the Veterans Employment & Training Service 
of the U.S. Department of Labor, and some of the staff of the State 
government in his State who together helped initiate a dialogue that 
led to all graduates of the Army's Medical Training Center at Fort Sam 
Houston, Texas being offered the opportunity to take a certification 
exam to be licensed as Emergency Medical Technicians (EMT) with a 
credential that is recognized in all 50 States. It took almost 3 years 
to achieve consensus and approval from the credentialing entities in 
all 50 States. A similar effort to try and get automatic licensing of 
Registered Nurses separating from the military in all 50 States did not 
succeed, even though it made great sense, particularly in States that 
have urban areas with the most acute nursing shortages. One thing that 
did succeed, at least for a time, was to use Job Training Partnership 
Act (JTPA) funds to pay for additional classroom and on-the-job 
training of former Navy Corpsmen and Army Medics to become Organ 
Transplant Coordinators. These were very good jobs, although tough in 
hours and emotionally. However, they were paid $35,000 per year while 
in training and average wages upon completing the 18 month training was 
a starting salary in excess of $60,000 per year plus benefits (and this 
was in 1990 dollars).
    The Congress recognized that there was still a large unfilled need 
when it passed the legislation that became Public Law 106-50, in 1999. 
One provision created a mechanism for pursuing many additional fields 
where servicemembers could obtain civilian recognized certification 
that would enable them to market their skills and expertise acquired 
during military service in the civilian job market. Unfortunately this 
function was located in the National Veterans Business Development 
Corporation (AKA--The Veterans Corporation) which was yet to get 
organized, and which had more than enough of a challenge just getting 
organized to try and meet their primary mandate.
    Frankly, the function should be formally moved to the Department of 
Labor, and impetus from the Congress marshaled to ensure that Labor 
actually moves forward, in cooperation with the accrediting bodies for 
the professions and skill trades in the States, to create smooth 
transition for those separating today and in the future, especially 
disabled veterans.
    The best work we know of being done anywhere today is the National 
Organization of Competency Assurance (NOCA). They were most interested 
in the area following the enactment of Public Law 106-50, but became 
disillusioned over time as there was no real movement toward getting 
military cooperation and all parties moving to come to workable 
solutions. It became clear early on the Veterans Corporation was not 
able to handle this task, nor did they want it. While there was some 
activity after the actual function, if not the legal responsibility, 
was moved over to the Veterans Employment & Training Service at USDoL, 
there has not been any major progress to our knowledge. They are having 
a major conference on the rapidly changing field of skill certification 
in San Antonio in November, which will 
be attended by employers as well as certifying entities and professional
s in this field.
    There are some tools and information available on the VETS Web site 
regarding certification and credentialing, but actual certification 
agreement and arrangements for military occupations does not appear to 
be something that is being pursued. Frankly, there needs to be 
clarification of responsibilities and accountability for pursuing this 
effort, and funding provided if there is to be any serious effort to 
capitalize on the considerable investment the Nation has already made 
in the training and education of separating servicemembers.
    The Nation's business community is very concerned with finding 
skilled workers who are disciplined and ready, willing, and eager to 
work. In fact VVA is a member of the United States Chamber of Commerce, 
and active in the activities of the U.S. Chamber's Institute for a 
Competitive Workforce, which is having a major conference here in 
Washington, DC next week. I have made details of this event available 
to your staff. VVA is pursuing a number of private efforts with 
business and privately owned military job boards because we are getting 
more return for our efforts per hour invested than with the Federal 
entities that should be in the forefront of this effort.
    The point is that businesses large and small are scrambling to 
locate and hire good, trained workers at a time when military 
separatees do not know where to turn, or do not have the civilian 
certification of the actual skills they possess. This matter of skill 
certification and proper matching of veterans with jobs is matter that 
directly and materially affects the ability of the younger veterans in 
being able to 
quickly enter the civilian labor force at a level which will maximize th
eir competence.
    May I be so bold as to suggest that it would be fruitful for this 
Subcommittee to hold a semi-formal/informal ``roundtable'' in the next 
few months that would involve members, business leaders, VETS/USDoL, VA 
Vocational Rehabilitation & Education, DoD, veterans and military 
organizations, representatives from the Institute for a Competitive 
Workforce and similar entities, representatives from NOCA and similar 
entities, as well as other stakeholders as determined by you to try and 
articulate the needs, and ``brainstorm'' what might be a productive 
course of action to meet the needs of both the returning veterans and 
of American business in the second session of the 110th Congress.
    Madame Chairwoman and distinguished Members of this Subcommittee, 
that concludes VVA's formal statement. I welcome your comments, and 
will be pleased to answer any questions you may have. Again, on behalf 
of VVA National President John Rowan, the VVA National Board of 
Directors, and our membership, thank you for allowing VVA to appear 
here today to share our views.

                                 <F-dash>

   Prepared Statement of Leslye A. Arsht, Deputy Under Secretary of 
                                Defense
   (Military Community and Family Policy), U.S. Department of Defense
    Madame Chairwoman and distinguished Members of the Committee, thank 
you for the opportunity to discuss the progress made by the Department 
of Defense (DoD) and the Military Services in providing information and 
assistance to servicemembers regarding licensure and credentialing.
    We require a great deal from our Armed Forces and I want to affirm 
the Department's commitment to all of our servicemembers--active, 
National Guard, Reserves, and their families.
    Returning to private life after serving in the military is a very 
complex undertaking. At the point of separating, retiring or being 
released from active duty as a member of the National Guard or 
Reserves, the transitory servicemember's most immediate goal is finding 
a job, accessing education to change careers, and ultimately to improve 
his/her economic quality of life for the long term. DoD believes that 
none of our efforts are more important than creating an uninterrupted 
continuum of opportunities at every level, as our service personnel and 
their families transition from military service to veteran status.
    The Department recognizes that the attainment of a civilian 
credential not only promotes professional growth, but communicates to 
employers the transferability of military training and experience. It 
is important for servicemembers to be able to capitalize on their 
military experience in order to reach and achieve their employment 
potential and aspirations in civilian life.
    Great progress has been made in providing transition assistance 
during the past year. We've succeeded in providing licensing and 
credentialing information in a range of ways and in different formats 
in order to appeal to individual learning styles and ensure the widest 
possible dissemination. The information is provided through classroom 
delivery from an instructor, by online interaction and through one-on-
one coaching so that servicemembers have the latest and most accurate 
information about transition assistance benefits available at their 
fingertips in order to make informed decisions about their future. An 
integral aspect of licensure and credentialing is that it is introduced 
to servicemembers early in their careers not just at the time of 
separation.
TRANSITION ASSISTANCE PROGRAM (TAP)
    The Transition Assistance Program (TAP) was created to assist 
servicemembers once they decide to separate or retire. During TAP, 
servicemembers receive information about licensure and certification.
    TAP is a collaborative partnership among DoD and the Military 
Services, the Department of Labor (DoL), the Department of Veterans 
Affairs (VA), and the Department of Homeland Security (DHS). Each 
agency is responsible for delivering its component of TAP.
    Transitioning servicemembers and demobilizing National Guard and 
Reserve personnel receive relevant information about licensure and 
certification through the four components of TAP (Pre-separation 
Counseling, DoL TAP Employment Workshop, VA Benefits Briefing, and the 
Disabled Transition Assistance Program (DTAP)). National Guard and 
Reservists receive a Uniformed Services Employment and Reemployment 
Rights (USERRA) briefing in lieu of the Employment Workshop. However, 
the Department of Labor has reached out to each State's Adjutant 
General to provide TAP employment workshops whenever and wherever 
desired.
    During the mandatory pre-separation counseling phase of TAP, 
servicemembers learn about licensing, certification, and apprenticeship 
resources. These include resources such as the DoL ``America's Career 
Info Net'' Web site, Army and Navy Credentialing Opportunities Online 
(COOL) Web sites, the DoD Verification of Military Experience and 
Training (VMET) document, the DoD/DoL U.S. Military Apprenticeship 
Program, the DoL Occupational Information Net (O*NET), DANTES, and 
TurboTAP. During pre-separation counseling, ``Licensure and 
Certification'' is contained in a module on the DD Form 2648 and DD 
Form 2648-1.
    The Military Services also provide one-on-one counseling, coaching, 
detailed briefings, guidance and other assistance required by the 
servicemember. Various workshops are provided to assist them in writing 
effective resumes, translating military skills to civilian skills, and 
skills and self assessments.
    The pre-separation counseling session also includes a discussion of 
the Department of Labor's Web site, ``Career One Stop.'' In this 
application, servicemembers link to the Credentials Center, which they 
can use to locate State-specific occupational licensing requirements, 
agency contact information and information about industry-recognized 
certifications. There are also associated workforce education and 
examinations that test or enhance knowledge, and experience or skills 
in related civilian occupations and professions. These sites have been 
developed and improved through close partnerships between DoD and DoL.
    DoD also developed a DoD Pre-separation Counselor Training Course 
in conjunc- tion with the National Learning Center, University of 
Denver at Colorado. The curric- ulum provides the minimum standards all 
counselors must achieve when explaining the licensing and certification 
module during the preseparation counseling session.
TURBOTAP
    Our newest tool for transitioning servicemembers is TurboTAP 
(http://www. TurboTAP.org). The Department launched this new Web portal 
on June 9, 2007. It was developed in collaboration with DoL and VA. 
Among the many features of the site is a Pre-separation Guide for 
Active Component Servicemembers, a Transition Guide for the Guard and 
Reserves, and an Employer Hub. Both guides deal with Employment 
Assistance, and provide a wealth of information on Employment 
Assistance and Credentialing Programs. They also link directly to Army 
and Navy COOL, the O*NET, the Occupational Outlook Handbook and many 
other resources relating to licensure and credentialing. Through the 
Employment Hub, servicemembers can access a section entitled 
``Translating Your Military Skills.'' This hub also links to the 
Military Occupational Classification (MOC) Skills Translator, developed 
by O*NET to help military personnel translate their military 
specialties to civilian occupations. It also provides them an 
occupational profile and they can get detailed employment information 
about that occupation.
    Because we recognize that our young servicemembers today are very 
``savvy'' when it comes to technology, we have made the site easy to 
navigate and have deliberately placed access to information in multiple 
locations through the site. It is all there at their fingertips and 
accessible 24/7.
TASK FORCE REPORT TO THE PRESIDENT: ``RETURNING GLOBAL WAR ON TERROR 
        HEROES''
    One of the recommendations in the Task Force Report to the 
President: ``Returning Global War on Terror Heroes,'' calls for the 
improvement in civilian workforce credentialing and certification. A 
special DoD-DoL Credentialing Working Group was established to address 
the actions required to implement this recommendation. A key tasking is 
to identify 10 major Military Occupational Specialties (MOSs) that may 
require minimal additional training or training adjustments to the 
curriculum of relevant Service Skills Development Schools that could 
result in certification in correlating civilian occupations. The 
Working Group is in the process of collecting and collating data on ALL 
MOSs by military service (including the National Guard and Reserves) 
based on how many people are in each MOS. They will narrow that list 
down to the top 10 MOSs based on how many people are in each MOS and 
conduct a cross-walk of those MOSs that correlate with the 10 high-
growth civilian industries. We expect that the results of that analysis 
will show the gaps between the MOSs and the credentialing requirements 
for the top 10 growth industries. The final step in this process will 
be to identify adjustments within the Service Schools required to 
support certain credentials. More work remains, but the 
final results will be a win-
win for our servicemembers and for the Nation's employers.
    The Credentialing Working Group is developing appropriate goals, 
objectives, and outcomes that will help remove credentialing barriers 
that some veterans and transitioning servicemembers face today, such as 
variations in State licensing requirements. The Group is developing 
recommendations that will help us (1) map career pathways between 
military occupations and civilian occupational employment, (2) promote 
uniformity/reciprocity across States with regard to occupational 
licensing, and (3) promote efforts to maximize the transferability of 
military education and training for purposes of credit toward licensure 
and certification requirements.
    Now I would like to share with you some of the programs and tools 
the military Services have in place to assist servicemembers with 
licensure and credentialing.
MILITARY SERVICES PROGRAMS AND TOOLS
    I think you'll agree that the Services have significantly augmented 
their focus on licensing and credentialing.
ARMY
    Since April 2002, the Army has embraced licensure and certification 
as a key means of helping soldiers apply their military training and 
work experience to the civilian workforce. They have conducted 
extensive research to link each of the Military Occupational 
Specialties (MOS) to civilian jobs and applicable civilian licenses and 
certifications. The Army found that 95 percent of its enlisted MOSs 
correlate with applicable civilian credentials; 93 percent of active 
duty soldiers serve in these MOSs.
    The extent to which soldiers are able to use their military 
training and experience to attain civilian licenses and certifications 
is determined through comprehensive gap analysis comparing MOS training 
with civilian credentialing requirements. The gap analysis is conducted 
on credentials determined to be most directly related to the MOS or to 
the skills attained through MOS training and experience.
    In conducting the gap analysis, an attainability rating is assigned 
to each relevant credential. This rating indicates the estimated 
ability of a first term soldier to obtain a given credential. 
Attainability ratings reflect the likelihood of a soldier attaining the 
corresponding credential during his or her first term of service, 
attaining it in a subsequent enlistment, or encountering difficulty in 
translating their military training and work experience to a civilian 
credential.
    The results of the research linking MOSs to civilian jobs and 
credentials, along with the results of the gap analysis, are available 
to soldiers through the Army Credentialing Opportunities On-Line (COOL) 
Web site (https://www.cool.army.mil).
    This robust site provides soldiers, counselors, family members, and 
employers with comprehensive information about certification and 
licensure relevant to Army MOSs. It helps soldiers find civilian 
credentialing programs related to their Military Occupational 
Specialties. It also helps them understand what it takes to obtain a 
credential and identifies resources that will pay credentialing fees. 
The Web site is designed to specifically aid soldiers in translating 
their military training and work experience to the civilian workforce. 
COOL Web site usage has been high. There have been over 4 million users 
since the site was launched in April 2002. Two-thirds have been MOS-
specific. The evidence is clear. Users are particularly interested in 
finding information specific to their MOS. Additionally, soldiers can 
receive one-on-one counseling in licensure and credentialing from 
education counselors at each installation.
NAVY
    In 2006, the Navy followed the Army lead and created the Navy COOL 
Web site (https://www.cool.navy.mil). Like the Army, sailors are able 
to use their military training and experience to attain civilian 
licenses and certifications by comparing rate training (Navy ratings 
are the same as MOSs) with civilian credentialing requirements. The 
Navy also conducted research and gap analyses on those credentials that 
have been determined to be most related to the skills attained through 
rating training and experience. It, too, has an attainability indicator 
for each relevant credential. Navy COOL also provides sailors, 
counselors, family members, and employers with comprehensive 
information and counseling about licensure and certification relevant 
to Navy ratings.
AIR FORCE
    Air Force emphasis on licensure and certification is linked to 
degrees conferred to its enlisted force by the Community College of the 
Air Force (CCAF). CCAF confers associate degrees in each enlisted 
members career field. The Air Force considers this to be the 
equivalency to the civilian world's certification. Air Force policy is 
to fund one license/certificate per Air Force career. Further, all Air 
Force Specialty Codes translate to comparable civilian work experience.
MARINE CORPS
    The Marine Corps uses a variety of resources to assist 
servicemembers with licensure and credentialing. These include the 
Department of Labor's America's Career InfoNet Web site, Army and Navy 
COOL Web sites, the Verification of Military Experience and Training 
Document (VMET), the U.S. Military Apprenticeship Program, the 
Occupational Information Network O*NET, the Defense Activity for Non-
Traditional Education Support (DANTES) and TurboTAP, the newest DoD 
Transition Assistance Program (TAP) Web site. Marine Corps Transition 
Assistance Management Program (TAMP) personnel are Certified Workforce 
Development Professionals and possess the skills necessary to assist 
Marines in translating their military experience and training into 
understandable civilian terminology.
CONCLUSION
    We acknowledge the importance of providing servicemembers clear and 
definitive information on licensure and credentials at many points in 
their military careers. Providing this information early on allows 
servicemembers to plan and seek out any needed additional required 
classes to complete to achieve their personal objective.
    Madame Chairwoman, this concludes my statement. On behalf of the 
men and women in the military today and their families, I thank you and 
the Members of this Subcommittee on Economic Opportunity for your 
steadfast support during these demanding times.
                                 <F-dash>

                Prepared Statement of John M. McWilliam,
 Deputy Assistant Secretary, Veterans' Employment and Training Service,
                        U.S. Department of Labor
    Madam Chairwoman and Members of the Subcommittee:
    I appreciate the opportunity to appear before you today to talk 
about the role of the Department of Labor's Veterans' Employment and 
Training Service (VETS) in helping transitioning servicemembers and 
veterans attain the licenses and certifications required for so many 
civilian jobs. The Department is grateful for the interest of the 
Committee on this very important issue for veterans, especially for 
those veterans returning from the Global War on Terror who are 
interested in obtaining a license or certification to either pursue a 
career using a skill-set learned in the military or acquire a new 
skill-set that requires a license or certification.
    Our Nation needs an increasingly skilled workforce and both the 
Department of Labor (DoL) and the Department of Defense (DoD) recognize 
that the skills obtained during an individual's military service can 
meet the needs of the civilian workforce.
    Since the start of the Global War on Terror, VETS has increased 
it's focus on servicemembers transitioning from military to civilian 
employment. Our strategy is three-pronged:
    First, we are working with the DoD to get more troops to the 
Transition Assistance Program (TAP) employment workshops. TAP is our 
earliest opportunity to identify transitioning servicemembers that 
might need help in obtaining licenses or certifications to pursue 
civilian careers. Through TAP, attendees are linked to the Federally 
funded One-Stop Career Centers, where veterans receive priority for 
employment and training services in their home towns. Licensure and 
certification is one of the topics covered in the TAP employment 
workshops. The instruction describes credentials and their purpose and 
importance in the civilian job market. The workshops also point the 
servicemember toward available resources, including electronic tools to 
assist the servicemember in obtaining information on licensing and 
certification.
    At One-Stop Career Centers across the Nation, veteran employment 
specialists are dedicated to identifying employment opportunities for 
veterans, including those that require a license or certification. 
Specialized assistance is available at the One-Stops to get veterans 
the help they need to qualify for and obtain meaningful jobs with 
career paths.
    Specialized services are also offered to those returning Global War 
on Terror veterans who are seriously wounded and injured through the 
Department's Recovery and Employment Assistance Lifelines 
(REALifelines) Program that provides one-on-one employment assistance.
    Second, we are educating servicemembers and employers on their 
rights and responsibilities under the Uniformed Services Employment and 
Reemployment Rights Act (USERRA), and vigorously investigating 
complaints under the law.
    Finally, we continue to reach out to employers through our national 
HireVetsFirst Campaign, which highlights the value that veterans bring 
to their workforce. The HireVetsFirst Campaign is coordinating with 
each State to stage at least one job fair between November 1st and the 
15th. Overall, VETS expects there will be over 70 veteran-only job 
fairs during this timeframe. Our goal is to achieve maximum visibility 
and demand for veterans' employment with employers throughout the 
United States.
Public Law 109-461
    Section 604 of Public Law 109-461, December 2006, authorizes the 
Assistant Secretary for Veterans' Employment and Training to carry out 
a demonstration project on credentialing for the purpose of 
facilitating the seamless transition of members of the Armed Forces 
from service on active duty to civilian employment.
DoD/DoL Work Group
    Prior to the enactment of P.L. 109-461, a joint Credentialing Work 
Group was formed in April 2006 to coordinate efforts on licensing and 
certification. This group is composed of representatives from the DoD, 
DoL's Employment and Training Administration and VETS. The Work Group 
has incorporated the guidance of 
P.L. 109-461 into its efforts and is developing a strategy to work with 
Service Schools, industries, and certifying bodies to develop new 
pathways for obtaining qualifications and certifications for 
transitioning servicemembers.
    The Work Group considered various methods of identifying which 
military occupations to target. We decided to focus on military 
occupations that comprise a high proportion of exiting servicemembers, 
and that can be matched to high-demand occupations in high-growth 
industries. We anticipate that these selection criteria will result in 
the greatest impact for the largest number of transitioning 
servicemembers.
    The group is gathering data on the most densely populated Military 
Occupational Specialties (MOSs) in the services. They will then analyze 
these MOSs and correlate them with high-demand, high-growth 
occupations. The Work Group will also take into account factors such as 
wage rates in identified civilian occupations, and types of credentials 
such as State or Federal licenses, apprenticeship completion 
certificates, or other certifications.
    The Work Group will assess the curricula used to train 
servicemembers for selected military occupations, and contrast it to 
the civilian training that leads to credentials in corresponding in-
demand civilian occupations. Working with Service Schools and 
industries, the Work Group will determine what military training is 
relevant to certification for the civilian occupations. Finally, the 
Work Group will work to identify qualifications and certifications that 
take advantage of military skills and experience.
    Our objective is to determine how to best align the military and 
civilian training, and provide opportunities for servicemembers to 
obtain civilian credentials either through their military training or 
with minimal additional training.
Other Credentialing Initiatives
    Both the Army and the Navy have Credentialing Opportunities Online 
(COOL) Web sites (www.cool.army.mil and www.cool.navy.mil) that map 
MOSs with civilian occupations, and identify the steps and 
organizations that can help an individual obtain the necessary 
credentials. The DoL-sponsored America's CareerInfoNet (ACINET) 
includes a military to civilian occupation translator (www.acinet.org/
moc) that also helps servicemembers match military skills and 
experience to civilian occupations, and identifies pathways to 
certifications. The VMET (Verification of Military Experience and 
Training) is another tool to transfer military skills to a civilian 
career. It is a document provided to servicemembers that lists his or 
her military experiences and any training they received. We are working 
to familiarize private industry with the VMET and its value in 
determining whether a veteran has the required skill-set to succeed in 
a particular occupation.
Identification of Funding
    Since the enactment of Public Law 109-461, VETS has worked to 
identify funding to support these licensure and credentialing efforts. 
We are developing a competitive Solicitation for Grant Applications 
(SGA) using available program year 2007 funding that will support a 
demonstration program for one MOS. The SGA will ask the applicants to 
identify and resolve barriers faced by transitioning servicemembers in 
obtaining a license or certification.
    Because the civilian workforce increasingly relies upon 
credentialing as a way to regulate entry into certain occupations, DoL 
intends to request additional funding in future years that would allow 
this single demonstration project to expand to cover 10 MOSs, thereby 
creating easier, better, faster paths to certifications and licenses 
from relevant military training and experience.
    In addition to these focused efforts, we intend to include, as part 
of the workforce investment activities funded by Veterans' Workforce 
Investment Program funds for program year 2009, the identification of 
barriers to licensure and certification for transitioning 
servicemembers, and we encourage potential grantees to apply for grants 
to address this issue.
Other Licensing and Certification Initiatives
    In addition to the efforts of both Departments in the Work Group, I 
want to describe some other initiatives DoL has with business groups 
and other organizations.
    One example is a trip VETS arranged for a site visit to the 
Aberdeen Proving Grounds for members of the Trucking Renting and 
Leasing Association including representatives from three major 
companies. The purpose of the visit was to introduce the leaders of 
these companies to how the military prepares its recruits to be truck 
mechanics. They learned that selected Army MOSs for mechanics are 
designed to meet the job specifications for Automotive Service 
Excellence civilian licensing certifications through the National 
Institute for Automotive Service Excellence.
    While touring the Grounds, these industry representatives addressed 
the monthly TAP employment workshop being held at the time and answered 
questions about opportunities for transitioning servicemembers in their 
industry.
    We recognize that many servicemembers are interested in obtaining a 
commercial driver's license (CDL) and working in the trucking industry 
upon discharge. We have worked with the major trucking associations to 
see how the acquisition of a CDL can be made easier. We are hopeful 
that in time, the Army MOS for mechanics and drivers will be accepted 
in the trucking industry without the need for extensive 
recertification.
    Madam Chairwoman, that concludes my statement and I would be happy 
to respond to any questions.

                                 <F-dash>
                 Prepared Statement of Keith M. Wilson,
                      Director, Education Service,
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Good afternoon, Chairwoman Herseth Sandlin, Ranking Member Boozman, 
and Members of the Subcommittee. I appreciate the opportunity to appear 
before you today to discuss Department of Veterans Affairs (VA) 
education benefits for licensing and certification testing. My 
testimony will address the details and background of the program for 
beneficiaries of the Montgomery GI Bill Active Duty (MGIB-AD), Selected 
Reserve (MGIB-SR), Reserve Educational Assistance Program (REAP) and 
Dependents Educational Assistance Program (DEA) as it relates to 
licensing and certification exams.
Overview
    While licensing and certification test reimbursements constitute a 
small portion of our overall payments, they nonetheless play a vital 
role in helping veterans and servicemembers transition from military to 
civilian life. An individual eligible for MGIB-AD or DEA benefits can 
receive reimbursement for licensing and certification tests taken on or 
after March 1, 2001. Individuals eligible under the MGIB-SR or REAP can 
receive reimbursement for licensing or certification tests taken on or 
after January 6, 2006. We do not consider Military Occupational 
Specialties when determining who gets reimbursed for taking an exam. 
However, since Department of Defense (DoD) programs, such as the Army's 
Credentialing Opportunities On-Line and Defense Activity for Non-
Traditional Education Support, provide such a valuable service in 
helping individuals transition from the military to the civilian 
workforce, we offer links to those programs on our GI Bill Web site for 
interested individuals who may benefit from such assistance. (We would 
defer to DoD as to which Military Occupational Specialties pose the 
greatest challenge for veterans in transitioning from the military to 
the civilian workforce. We also must defer to DoD as to how many 
veterans and servicemembers receive credentialing while in the 
military.)
    The maximum education benefit payment per approved test is $2,000. 
There is no limitation to the number of tests that may be taken, except 
that an eligible individual may not exceed his or her maximum education 
benefit entitlement. It is not uncommon for an individual to take a 
series of tests. For instance, a veteran or servicemember may take a 
series of exams to certify programming skills in different types of 
computer language. Currently, there are over 4,300 exams approved for 
reimbursement benefits. Since the inception of the program, VA has made 
approximately 31,500 payments to 14,300 individuals with an average 
reimbursement of $408 per exam.
    VA appointed an individual with expertise in matters relating to 
licensing and certification to serve as a member of the Veterans 
Advisory Committee on Education (VACOE). This individual provides 
advice concerning licensing and certification and how these benefits 
assist in the transition from the military to the civilian workforce.
    We believe the continued provision of benefits for licensing and 
certification tests will play a valuable role in assisting eligible 
individuals with their readjustment to civilian life and prepare them 
for critical roles in a 21st century economy.
    Madam Chairwoman, this concludes my statement. I would be pleased 
to answer any questions you or any of the other Members of the 
Subcommittee may have.

                                 <F-dash>
            Statement of ASIS International, Alexandria, VA
    ASIS International, with more than 35,000 members, is the largest 
organization worldwide for security professionals. For over 50 years 
ASIS, a not for profit entity, has been dedicated to increasing the 
effectiveness and productivity of individuals working in the security 
field, with a consistent focus on education, professional development 
and certification. ASIS strongly believes that security industry 
credentialing through ASIS certifications can help transition members 
of the Armed Forces into high demand and well-paying civilian jobs.
    ASIS offers three professional security certifications; Certified 
Protection Professional (CPP); Professional Certified Investigator 
(PCI) and Physical Security Professional (PSP). The CPP Certification 
was established in 1977 and clearly it is not an opportunistic ``9/12'' 
security certification program. It is the security industry's highest 
recognition of practitioners, and all ASIS certifications are SAFETY 
Act Designated. In 2004, the U.S. Air Force Security Forces Directorate 
integrated CPP Certification into the professional development of its 
security forces. Earning ASIS certification increases both short-term 
and long-term job prospects and for veterans can use their in-service 
experience to satisfy ASIS certification eligibility requirements. For 
government, military, or law enforcement professionals planning to 
leave the public sector, ASIS certification provides a way to build on 
previous experience and transition to a successful second career in the 
private sector.
    In 2007, the United States Marine Corps (USMC) commissioned a study 
on behalf of all military branches to assess the value of ASIS security 
certifications to military security professionals. The study undertook 
``side-by-side'' comparisons of ASIS certifications with other security 
professional development offerings and concluded that ``(t)he 
professional development and certification opportunities available 
through ASIS would provide significant, unique value to the USMC/DoD.'' 
It recommended that the Marines Corps and DoD ``should investigate 
courses of action, to include ASIS professional development and 
certifications, to build and sustain an all-inclusive career 
development program for its Military and Civil Service security 
professionals.''
    ASIS International is ready, willing and able to work with the DoL, 
DoD and the VA and Congress to create opportunities and provide 
assistance for transitioning veterans to become ASIS certified. 
Specifically, ASIS seeks to be included in the DoL Veterans' Employment 
and Training Service (VETS) ``Demonstration Project on Credentialing 
and Licensure of Veterans'' currently being set up pursuant to the 
Veterans Benefits, Healthcare, and Information Technology Act of 2006. 
The legislation states the program is to facilitate the transition of 
members of the Armed Forces to civilian employment by reducing barriers 
to certification in industries with high growth and high worker demand. 
Given this worthy goal, the Subcommittee should encourage DoL VETS to 
work with ASIS International to make ASIS security certifications more 
accessible and obtainable for veterans, and thus increase their ability 
and likelihood to gain successful and stable employment in the 
increasingly important and burgeoning security field.
    For more information on ASIS International please go to 
www.asisonline.org.

                                 <F-dash>
                 Statement of James Kendzel, MPH, SPHR,
   Executive Director, National Organization for Competency Assurance
    The National Organization for Competency Assurance (NOCA) 
appreciates the opportunity to submit testimony to the House Committee 
on Veterans' Affairs Subcommittee on Economic Opportunity regarding its 
hearing on the licensure and certification of transitioning veterans. 
Often, a credential is the quickest and most efficient pathway to 
employment, transitioning into a new occupation, or advancing in one's 
current occupation, hence NOCA is pleased that the Subcommittee is 
giving this issue its fullest attention.
NOCA's Longstanding Commitment to Assisting America's Veterans
    NOCA has long been committed to reaching out to Federal agencies 
and the veteran service organization (VSO) community to ensure that 
veterans have access to occupational certification opportunities that 
will allow their post-military careers to flourish.
    NOCA has been significantly involved in military transition issues 
for almost a decade. In 2001, NOCA leaders were appointed \1\ to serve 
on the Professional Certification Advisory Board (PCAB). Established by 
Sec. 202(a) of Public Law 106-50, the PCAB's statutory mission is to 
advise the Board of Directors of the National Veterans Business 
Development Corporation (NVBDC) in the creation of uniform guidelines 
and standards for the professional certification of members of the 
Armed Forces in order to aid in their efficient and orderly transition 
to civilian occupations and professions, and to remove potential 
barriers in the areas of licensure and certification. NOCA also worked 
side by side with VSOs to secure startup appropriations for the 
National Veterans Business Development Corporation.
---------------------------------------------------------------------------
    \1\ See NOCA Appointed to Professional Certification Advisory 
Board, NOCA Press Release (2001). Available at http://www.noca.org/
portals/0/pcab.doc.
---------------------------------------------------------------------------
    The passage of the Veterans Benefits and Healthcare Improvement Act 
of 2000 (Public Law 106-419) in November 2000 expanded opportunities 
for veterans to use their Montgomery GI benefits to pay for 
professional certification tests. NOCA strongly supported this 
legislation and assisted the U.S. Department of Labor in developing 
standards for organizations to achieve should they want their 
certification tests to be eligible for Montgomery GI reimbursement. 
NOCA has enthusiastically promoted this program to its members to 
ensure that as many certification organizations as possible meet the 
requirements.
    NOCA leaders were appointed \2\ by the Secretary of Veterans 
Affairs to serve on the Professional Certification and Advisory 
Committee (PCLAC) in 2001. Established by Public Law 106-419, the 
purpose of the PCLAC was to advise the Secretary of Veterans Affairs on 
the requirements of organizations that offer licensing and 
certification tests to veterans using their Montgomery GI benefits as 
payment. As decreed in the PCLAC's enabling legislation, the PCLAC 
ceased operations in December 2006.
---------------------------------------------------------------------------
    \2\ See NOCA Past President Appointed to Veterans' Advisory 
Committee, NOCA Press Release (2001). Available at http://www.noca.org/
portals/0/pclac.doc.
---------------------------------------------------------------------------
    NOCA also supported Chairman Filner's efforts to expand the use of 
education benefits under the Reserve Montgomery GI Bill for licensing 
or certification tests. These enhanced benefits, enacted in 2006, 
permit members of the Selected Reserve to use up to $2,000 of Reserve 
Montgomery GI Bill educational assistance benefits for payment for 
licensing or certification tests.
    NOCA sought to provide additional resources to military personnel 
and veterans by redesigning its Web site. A special section on NOCA's 
Web site is designed to provide information to veterans about what 
kinds of certifications exist in the private sector. NOCA has 
encouraged other interested organizations to link to its Web site. The 
site may be reached at http://www.noca.org/Advocacy/
MilitaryandVeterans/tabid/88/Default.aspx.
    NOCA played an active role in the Task Force for Veterans 
Entrepreneurship, a coalition of VSOs and other interested parties 
which joined together a number of years ago to advocate for stronger 
entrepreneurial opportunities for veterans. The Task Force is 
especially committed to advocating the needs of service-disabled 
veterans and the special challenges they face in returning to civilian 
life.
    NOCA's advocacy efforts on behalf of veterans have been recognized 
with a 2002 ``Associations Advance America'' award from the American 
Society of Association Executives (ASAE). The Associations Advance 
America Awards program recognizes associations that propel America 
forward, by recognizing innovative projects in education, skills 
training, standards-setting, business and social innovation, knowledge 
creation, citizenship, and community service.
    NOCA also has plans to hold a 2008 educational event on Capitol 
Hill that will allow legislators and staff to learn more about 
occupational certification. Representatives from the U.S. Army and Navy 
``Credentialing Opportunities Online'' (COOL) programs have indicated 
they plan on partnering with NOCA for this important event.
More Work Needs to Be Done
    Many Federal agencies are still not maximizing the use of the 
Internet as a tool to reach the widest audience possible. Some 
agencies, however, have made great strides toward providing 
comprehensive, easy-to-use, online certification resources. The 
Department of the Army's ``Credentialing Opportunities Online'' (COOL) 
\3\ Web site is an exceptional example of how the Internet can be used 
to reach out to servicemembers and veterans. NOCA provided assistance 
and expertise to the Army as the COOL Web site was being developed. We 
continue to partner with the Army to share information and expertise so 
that Army personnel might benefit from COOL.
---------------------------------------------------------------------------
    \3\ Available at https://www.cool.army.mil/.
---------------------------------------------------------------------------
    The U.S. Navy has followed the Army's lead with the creation of its 
own COOL Web site.\4\ The COOL Web site provides an excellent model for 
other military branches interested in providing similar resources for 
their service personnel and veterans.
---------------------------------------------------------------------------
    \4\ Available at https://www.cool.navy.mil/.
---------------------------------------------------------------------------
    NOCA has continued to offer its expertise to the Veterans 
Employment and Training (VETS) program at the U.S. Department of Labor 
to reach the widest audience possible about credentialing 
opportunities. NOCA hopes that Congress continues to provide adequate 
levels of funding to VETS so that the agency has the necessary 
resources to carry out its important mission. Of particular value would 
be an extensive effort to identify the full universe of certification 
programs that may offer additional transition opportunities for 
servicemembers. We have previously recommended the creation of a ``one-
stop'' listing of all certification programs, highlighting the 
education and training requirements and the administrative procedures 
for applying for and taking test requirements. The Department of 
Labor's Career One-Stop Web site appears to be just such a resource. In 
addition to providing up-to-date information about credentialing 
opportunities, the site contains information specific to military 
personnel transitioning to the private sector.\5\ NOCA commends the 
Department of Labor on the Career One-Stop project and hopes Congress 
will continue to fund this innovative tool.
---------------------------------------------------------------------------
    \5\ Available at http://www.careeronestop.org/militarytransition/.
---------------------------------------------------------------------------
    NOCA has previously recommended that the full resources of the 
certification community be brought to bear when attempting to create 
more professional opportunities for military veterans. NOCA has 
attempted to reach out to all branches of the armed services and 
Federal agencies to share information, ideas, and ingenuity. We 
continue to encourage the military branches to reach out to NOCA to 
access our expertise in identifying new and existing certification 
skill-sets and in establishing pathways to certification for military 
personnel. To leverage the time and resources devoted to the men and 
women in the armed services, their skills and training should have 
identified pathways to certification and licensure.
    Previously, NOCA identified the need for uniform standards to be 
created for armed services certification programs to ensure that 
military personnel receive the highest quality certification with 
maximum transferability to the private sector. We continue to feel that 
this is of the greatest importance. NOCA has developed standards \6\ 
for certification that can be used as a starting point for the 
development of quality uniform standards for certification programs. 
Professionals in a wide variety of fields work hard to earn their 
credentials and rely on certification organizations to ensure that 
certifications are relevant to performance on the job. Any effort to 
``dumb down'' professional certification standards is a disservice to 
military veterans--as well as the public, whom certification program 
standards are designed to protect.
---------------------------------------------------------------------------
    \6\ See http://www.noca.org/NCCAAccreditation/Standards/tabid/93/
Default.aspx.
---------------------------------------------------------------------------
    We note that legislation in previous years has been introduced to 
create other Federal advisory boards purporting to advise the Secretary 
of Veterans Affairs and others about military transition. We 
respectfully suggest that the formation of additional advisory boards 
is no longer necessary, but there may be some use in reforming the 
Professional Certification and Licensure Advisory Committee. Upon its 
sunset in December 2006, the PCLAC submitted its final report \7\ to 
the Secretary as required by its enabling statute. The final report 
contains a roadmap of recommendations for policymakers to follow to 
enhance additional transition activity.
---------------------------------------------------------------------------
    \7\ The report is included in Appendix II of this testimony.
---------------------------------------------------------------------------
About the National Organization for Competency Assurance (NOCA)
    NOCA, the oldest and largest organization representing 
certification agencies, testing companies, and consulting firms and 
individuals involved in professional certification, was created in 1977 
as the National Commission for Health Certifying Agencies (NCHCA) with 
Federal funding from the Department of Health and Human Services. Its 
mission was to develop standards for quality certification in the 
allied health fields and to accredit organizations that met those 
standards. With the growing use of certification in other fields, 
NCHCA's leaders recognized that what is essential for credible 
certification of individuals in the healthcare sector is equally 
essential for other sectors. With this vision, NCHCA evolved into the 
National Organization for Competency Assurance. NOCA is a nonprofit, 
501(c)(3) organization, committed to serving the public interest by 
ensuring adherence to standards that ensure the highest competence of 
certification programs.
    NOCA's membership is composed of more than 600 organizations 
responsible for certifying specific skill-sets and knowledge bases of 
professions and occupations at the national and international level. 
Through certification, NOCA members represent more than 15 million 
individuals around the world and include certification programs of some 
150 professions and occupations, including 60 healthcare professions. 
NOCA members certify individual skills in fields as diverse as 
construction, healthcare, automotive, and finance. A current roster of 
NOCA members is included in the appendix.
    NOCA's mission is to promote excellence in competency assurance for 
individuals in all occupations and professions. No other organization 
has the presence in or commits the resources to the field of 
certification. NOCA is proud of its position as the international 
leader in competency assurance for certification programs, as well as 
its role in promoting excellence in competency assurance for 
practitioners in all occupations and professions.
What Is Certification?
    The certification of professional and occupational skill-sets 
affirms a knowledge and experience base for practitioners in a 
particular field, their employers, and the public at large. 
Certification represents a declaration of a particular individual's 
professional competence. In some professions certification is a 
requirement for employment or practice. Doctors, mechanics, 
accountants, surveyors, and many others establish their credentials and 
capabilities through certification. In all instances, certification 
enhances the employability and career advancement of the individual 
practitioner or employee.
    The benefits of credentialing include:

    <bullet>  Consumer confidence and safety through verification of 
competence.
    <bullet>  Protecting the general public from incompetent and unfit 
practitioners.
    <bullet>  Establishment of professional standards for individuals 
in a particular field.
    <bullet>  Assisting consumers in making informed decisions about 
qualified providers.
    <bullet>  Assisting employers in making more informed hiring 
decisions.
    <bullet>  A more productive and highly trained workforce for 
employers.

    A number of occupational certifications have been deemed so 
rigorous by State regulatory bodies that passage of the certification 
examination itself is often used as the basis of licensure. 
Certification is distinct from licensure in that it is voluntary and 
requires recertification to maintain the credential. Recertification 
frequently requires continual education or periodic testing. 
Recertification provides a reaffirmation of competency assurance by 
ensuring that the certificant is up-to-date with the latest training 
techniques, research, and methods for a particular field.
Accreditation of National Voluntary Credentialing Programs
    The National Commission for Certifying Agencies (NCCA) is the 
accreditation arm of NOCA. Accreditation provides a mechanism for 
certification organizations to demonstrate to the profession it 
represents and the general public it serves that its credentialing 
program has been reviewed by a panel of impartial experts that have 
determined that the certification program has met the stringent 
standards of NCCA. NCCA accreditation provides certification programs 
and many NOCA members with a way to answer the question ``who vetted 
your certification program?''--a question often posed by members of an 
occupation, employers, customers, and, sometimes, the courts.
Conclusion
    Improving the prospects for employment of servicemembers when they 
leave the military will go a long way toward meeting recruiting goals, 
improving military morale, enhancing the quality of our civilian 
workforce, and keeping our economy competitive. These men and women of 
the armed services deserve access to the resources that will help 
transition the training they received in military service into 
marketable skill-sets in their post-military careers. NOCA stands at 
the ready to assist in this mission.

            Respectfully Submitted,

                                          James Kendzel, MPH, SPHR,
                                                Executive Director,
              National Organization for Competency Assurance (NOCA)

                               __________
                               APPENDIX I
                      NOCA Organizational Members
    NOCA's Organizational Members consist of the following 
associations, certifying organizations, customer groups, and government 
agencies:

AACE International
Academy of Ambulatory Foot and Ankle Surgery
Academy for Certification of Vision Rehabilitation and Education 
Professionals
Academy of Lactation Policy and Practice
Accrediting Bureau of Health Education Schools
Aerobics and Fitness Association of America
Alliance of Information and Referral Systems
American Academy of Health Care Providers in the Addictive Disorders
American Academy of Nurse Practitioners
American Academy of Micropigmentation
American Academy of Pain Management
American Academy of Wound Management
American Association for Medical Transcription
American Association for Respiratory Care
American Association of Clinical Coders and Auditors
American Association of Colleges of Nursing
American Association of Critical-Care Nurses Certification Corporation
American Association of Medical Assistants
American Association of Medical Audit Specialists
American Association of Physician Specialists
American Association of Poison Control Centers
American Board for Certification in Orthotics and Prosthetics, Inc.
American Board for Certification of Teacher Excellence, Inc.
American Board for Occupational Health Nurses
American Board of Cardiovascular Perfusion
American Board of General Dentistry
American Board of Industrial Hygiene
American Board of Lower Extremity Surgery
American Board of Multiple Specialties in Podiatry
American Board of Nursing Specialties
American Board of Opticianry
American Board of Pain Medicine
American Board of Registration of Electroencephalographic and Evoked 
Potential
  Technologists, Inc.
American Board of Surgical Assistants
American Board of Transplant Coordinators
American Board of Veterinary Practitioners
American Certification Agency for Healthcare Professionals
American Chiropractic Board of Radiology
American Chiropractic Board of Sports Physicians
American Chiropractic Neurology Board
American Chiropractic Registry of Radiologic Technologists
American Clinical Board of Nutrition
American College of Sports Medicine
American College of Veterinary Ophthalmologists
American Construction Inspectors Association
American Council on Exercise
American Fitness Professionals and Associates
American Health Information Management Association
American Hospital Association Certification Center
American Institute of Certified Public Accountants
American Indoor Air Quality Council
American Manual Medicine Association
American Medical Massage Association
American Medical Technologists
American Midwifery Certification Board
American Nurses Credentialing Center Commission on Certification
American Occupational Therapy Association
American Optometric Association Commission on Paraoptometric 
Certification
American Organization for Bodywork Therapies of Asia
American Physical Therapy Association
American Registry for Diagnostic Medical Sonographers
American Registry of Magnetic Resonance Imaging Technologists
The American Registry of Radiologic Technologists
American Society for Metabolic and Bariatric Surgery
American Society for Clinical Pathology
American Society of Anesthesia Technologists and Technicians
American Society of Military Comptrollers
American Speech-Language-Hearing Association
American Staffing Association
American Veterinary Chiropractic Association, Inc.
American Veterinary Medical Association
APICS--The Association for Operations Management
Aquatic Exercise Association, Inc.
Architectural Woodwork Institute
Art Therapy Credentials Board
ASIS International
Association for Death Education and Counseling
Association for Investment Management and Research
Association of Christian Alcohol and Drug Counselors
Association of Government Accountants
Association of Regulatory Boards of Optometry
Association of Surgical Technologists, Inc.
Association of Water Technologies, Inc.
Axiom Resource Management, Inc.
Behavior Analyst Certification Board
Biofeedback Certification Institute of America
Board for Certification in Clinical Anaplastology
Board for Certification of Addiction Specialists
Board for Certification in Pedorthics
Board for Orthotist/Prosthetist Certification
Board of Canadian Registered Safety Professionals
Board of Certification for Emergency Nursing
Board of Certification in Professional Ergonomics
Board of Certification of Medical Illustrators
Board of Certified Safety Professionals
Board of Environmental, Health & Safety Auditor Certifications
Board of Pharmaceutical Specialties
Board of Registered Polysomnographic Technologists
Breining Institute
California Association for Alcohol and Drug Educators
California Association of Alcoholism and Drug Abuse Counselors (CAADAC) 
and the
  California Certification Board of Alcohol and Drug Counselors 
(CCBADC)
California Association of Drinking Driver Treatment Programs
California Certifying Board for Medical Assistants
California-Nevada Section, American Water Works Association
California Water Environment Association
Canadian Alliance of Physiotherapy Regulators
Canadian Board for Respiratory Care, Inc.
Canadian Chiropractic Examining Board
Canadian Council of Professional Engineers
Canadian Nurses Association
Center for Credentialing and Education
Certification Board for Music Therapists
Certification Board for Radiology Practitioner Assistants
Certification Board for Sterile Processing and Distribution
Certification Board for Infection Control and Epidemiology
Certification of Disability Management Specialists Commission
Certified Financial Planner Board of Standards, Inc.
Certified Fund Raising Executive International
Certified General Accountants Association of Canada
Certified Mine Safety Professional Certification Board
Certifying Board for Dietary Managers
Chartered Realty Investor Society
College and Association of Registered Nurses of Alberta
College of Massage Therapists of Ontario
College of Medical Laboratory Technologists of Ontario
College of Medical Radiation Technologists of Ontario
College of Occupational Therapists of Ontario
College of Pharmacists of British Columbia
College of Physiotherapists of Ontario
College of Respiratory Therapists of Ontario
Commission for Case Manager Certification
Commission for Certification in Geriatric Pharmacy
Commission on Dietetic Registration of the American Dietetic 
Association
Commission on Graduates of Foreign Nursing Schools
Commission on Rehabilitation Counselor Certification
Competency and Credentialing Institute
Convergys
The Cooper Institute
Council of Landscape Architectural Registration Boards
Council on Certification of Health, Environmental, and Safety 
Technologists
Council on Certification of Nurse Anesthetists
Council on Licensure, Enforcement and Regulation
Council on Professional Standards for Kinesiotherapy
Crane Operator Certification Authority
CFA Institute
CSI Global Education
Dental Assisting National Board
Department of Environment and Labor Province of Nova Scotia
Entertainment Technician Certification Program (ETCP-ESTA)
Esthetic Skin Institute
Examination Board of Professional Home Inspectors
Financial Planning Standards Board
Financial Planners Standards Council
Financial Planning Association of Australia
Florida Certification Board
Fundacao Luis Eduardo Magalhaes
Hand Therapy Certification Commission, Inc.
The Healing Oasis Wellness Center
Healthcare Compliance Certification Board
Healthcare Financial Management Association
Healthcare Information and Management Systems Society
Healthcare Quality Certification Board
Human Resource Certification Institute
Illinois Department of Financial & Professional Regulation
Infocomm International
International Medical University of Natural Education (IMUNE)
Indian Alcoholism Commission of California
Infusion Nurses Certification Corporation
Institute for Safety and Health Management
Institute of Certified Construction Financial Professionals
Institute of Certified Management Accountants
Institute of Hazardous Materials Management
Institute for Supply Management
International Accounts Payable Professionals, Inc.
International Air Filtration Certifiers Association
International Alliance for Fitness Professionals
International Association for Colon Hydrotherapy
International Association of Eating Disorders Professionals Association
International Association of Forensic Nurses
International Association of Healthcare Central Service Materiel 
Management
International Board of Lactation Consultant Examiners
International Code Council
International Executive Housekeepers Association, Inc.
International Fitness Association
International Lactation Consultant Association
International Pilates Certification
International Society for Clinical Densitometry
International Society of Arboriculture
International Society for Performance Improvement
Irrigation Association
ISA, The Instrumentation, Systems, and Automation Society
Joint Commission on Allied Health Personnel in Ophthalmology
Kassian Dyck & Associates
Knowledge Assessment Calculator (formerly American Payroll Association)
Lamaze International
Liaison Council on Certification for the Surgical Technologist
Marketing Research Association
Medical Massage National Certification Board
Michigan Institute for Health Enhancement
NAA Education Institute
NAADAC--The Association for Addiction Professionals
National Academy of Sports Medicine
National Alliance Wound Care
National Assistant at Surgery Council
National Association of Medical Staff Services
National Association for Health Professionals
National Association of Boards of Pharmacy
National Association of Certified Valuation Analysts
National Association of College Stores
National Association of Federal Credit Unions
National Association of Forensic Counselors
National Association of Legal Assistants
National Association of Mortgage Brokers
National Association of Social Workers
National Association of State Contractors Licensing Agencies
National Asthma Educator Certification Board, Inc.
National Athletic Trainer's Association Board of Certification
National Board for Certification in Hearing Instrument Sciences
National Board for Certification of Hospice and Palliative Nurses
National Board for Certification of Orthopaedic Technologists
National Board for Certification in Occupational Therapy
National Board for Certification of Orthopedic Physician Assistants
National Board for Certified Counselors
National Board for Professional Teaching Standards
National Board for Respiratory Care
National Board of Certification for Community Association Managers, 
Inc.
National Board of Chiropractic Examiners
National Board of Examiners in Optometry
National Board of Nutrition Support
National Board of Orthodontics, U.S.
National Board of Surgical Specialists
National Business Aviation Association
National Center for Competency Testing
National Certification Board for Diabetes Educators
National Certification Board for Therapeutic Massage and Body Work
National Certification Commission for Acupuncture and Oriental Medicine
National Certification Corporation for the Obstetric, Gynecologic, and 
Neonatal
  Nursing Specialties
The National Commission for Health Education Credentialing
National Commission for Certification of Continuing Medical Education
  Professionals
National Commission for the Certification of Crane Operators
National Concrete Masonry Association
National Contact Lens Examiners
National Council for Interior Design Qualification
National Council for Therapeutic Recreation Certification, Inc.
National Council of Architectural Registration Boards
National Council of Examiners for Engineering and Surveying
National Council of State Boards of Nursing, Inc.
National Council on Strength and Fitness
National Credentialing Agency for Laboratory Personnel
National Dental Hygiene Certification Board
National Enrichment Teachers Association
National Examining Board of Ocularists
National Exercise Trainers Association (NETA)
National Exercise and Sports Trainers Association (NESTA)
National Federation of Professional Trainers
National Fitness Professionals Association
National Ground Water Association
National Healthcareer Association
National Institute for Automotive Service Excellence
National Institute for Certification in Engineering Technologies
National Institute for Metalworking Skills
National Kitchen and Bath Association
National League for Nursing
National Occupational Competency Testing Institute
National Paramedical for Technician and Assistants
National Recreation and Parks Association
National Registry of Emergency Medical Technicians
National Registry of Food Safety Professionals
National Strength and Conditioning Association (NSCA) Certification 
Commission
Natural Therapies Certification Board
Nephrology Nursing Certification Commission
North American Board of Certified Energy Practitioners
North American Registry of Midwives
North Carolina Substance Abuse Practice Board
The Nuclear Medicine Technology Certification Board
Oncology Nursing Certification Corporation
Ontario College of Pharmacists
Ontario College of Social Workers and Social Service Workers
Ophthalmic Photographers' Society, Inc. Board of Certification
Pediatric Nursing Certification Board
Petrofac Training International
Pharmacy Examining Board of Canada
Pharmacy Technician Certification Board
Pilates Method Alliance, Inc.
Professional Golfers' Association of America
Professional Healthcare Institute of America
Professional Landcare Network
Professional Photographers of America
Psychiatric Rehabilitation Certification Program
Radiology Coding Certification Board
Registry of Interpreters for the Deaf, Inc.
Rehabilitation Engineering and Assistive Technology Society of North 
America
Rocky Mountain Masonry Institute
School Nutrition Association
Society of Actuaries
Society of American Foresters
Society of Cable Telecommunications Engineers
Society of Certified Senior Advisors
The Society of the Plastics Industry
Society of Tribologists and Lubrication Engineers
Software Engineering Institute
Southern California Crane and Hoisting Certification Program
Transportation Professional Certification Board, Inc.
UCSD--Center for Criminality Addiction Research, Training, and 
Application
  (CCARTA)
Universal Public Purchasing Certification Council
U.S. Green Building Council
Veterinary Hospital Managers Association
The Wedding Planning Institute
Wound, Ostomy, and Continence Nurses Certification Board

                               __________
                              APPENDIX II
       Professional Certification and Licensure Advisory Committee,
                                    Department of Veterans Affairs,
                                                     Washington, DC
                                                     April 10, 2007

The Honorable R. James Nicholson
Secretary of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Secretary,

    The Professional Certification and Licensure Advisory Committee 
(PCLAC) met in Washington, DC, on October 26, 2006. The meeting marked 
the final assembling of members as the PCLACs sunset occurred on 
December 31, 2006. The following members attended the meeting:

    Sandra L. Winborne, Ph.D., Chair
                                            Ms. Lisa Lutz
    Mr. Michael Clark
                                            William G. Harris, Ph.D.
    Mr. Wade B. Delk
                                            Ms. Donna H. Mooney, RN
    Roy Swift, Ph.D.
                                            Ms. Carolyn Baker (Ex-
Officio, DoD)

    Department of Veterans Affairs Staff Present:

    Mr. William Susling
    Mr. Salminio Garner

    Guests Present:

    Mr. Joseph Sharpe (American Legion)
                                            Ms. Devon Siebert (HVAC)
    Mr. Juan Lara (American Legion)
                                            Mr. Ron Horne (DoD)
    Mr. Jim Kendzel (NOCA)
    Giles Larrabee (Ret. Ed Service)

    PCLAC members discussed the legacy of the committee and emphasized 
the importance of having their concerns for the Veterans Affairs' 
certification and licensure programs under the Montgomery GI Bill 
(MGIB) be somehow incorporated into another advisory group's domain for 
future discussions. Perhaps the Education Advisory Committee is best 
suited for this. PCLAC developed a list of six recommendations that we 
feel the Department of Veterans Affairs should consider for future 
directions on how professional certification and licensure is handled 
by the agency. The recommendations are found on page three of this 
document.
    PCLAC members attempted to address the magnitude of the changing 
workforce and how veterans need to understand those changes where 
professional certification and licensure may be necessary to obtain 
employment or maintain employment. The Montgomery GI Bill's long 
history of association with traditional education makes it reasonable 
to explore ways to expand veterans' understanding of professional 
certification and licensure and the possibilities that it may enhance 
their career opportunities should they explore it.
    I personally want to thank you, Mr. Secretary, and your staff in 
Education Services who provided many hours in meetings and follow-up to 
ensure that PCLAC remained on task and oriented toward the mission as 
stated under Public Law 106-419. I also thank each member of PCLAC who 
are experts in professional certification and licensure and I sincerely 
hope that if the committee is resurrected that you would invite each 
member to return to a position.
    In closing, I appreciate my selection as chair of PCLAC and I am 
available for consultation on professional certification and licensure 
issues. My contact information is 850.452.1111 Ext. 3213.

            Respectfully,

                                          Sandra L. Winborne, Ph.D.
                                                              Chair

Attachment (1) Final PCLAC Recommendations
Attachment (2) October 26, 2006 PCLAC Meeting Minutes

                               __________
                             Attachment (1)
The Professional Certification and Licensure Advisory Committee (PCLAC)
                         Final Recommendations
    1.  Add a component of licensure and certification to quality 
assurance process.
      <bullet>  This should be similar to the education process to 
fulfill VA's oversight responsibility.

    2.  Due to the increase of credentialing agencies and the decrease 
in the number of veterans utilizing the benefit, immediately improve 
current outreach activities.
      a. Improve
      b. Analyze
      c. Expand for new entitlements

    3.  VA should strengthen partnerships with other Federal agencies 
with credentialing organizations and their accrediting bodies, as well 
as other experts in the field of certification and licensure. 
Maintaining and enhancing VA's existing knowledge through this 
partnership can accomplish this.

    4.  Reconstitute the Committee under the VA.

    5.  Develop a policy to mandate that credentialing organizations 
perform a periodic review of licensure and certification programs to 
ensure and continue compliance with the DVA approval criteria.

    6.  Recommend legislation that would expand the GI Bill benefit to 
include payment for tutorial assistance needed to pass licensing and 
certification exams.
          POST-HEARING QUESTIONS AND RESPONSES FOR THE RECORD

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                     Washington, DC
                                                   October 30, 2007

Keith M. Wilson
Director, Education Service
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Ave., NW
Washington, DC 20420

Dear Mr. Wilson:

    Please review and respond to the enclosed hearing questions by the 
close of business on November 30, 2007. These questions are in 
reference to our House Committee on Veterans' Affairs Subcommittee on 
Economic Opportunity hearing on 
``Licensure and Credentialing'' on September 20, 2007.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-3608.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________
                        Questions for the Record
          The Honorable Stephanie Herseth Sandlin, Chairwoman
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs
                           September 20, 2007
                 Hearing on Licensure and Credentialing

    Question 1: When was the last time VA updated the $2,000 limit 
reimbursement for classes taken toward a credential or licensure?

    Response: The $2,000 limit for reimbursement is for the examination 
fee itself, not for classes taken toward license or certification. 
Classes taken toward a license or certification exam could potentially 
be payable under regular Montgomery Gl Bill (MGIB Chapter 30) benefits 
if the classes are approved as part of the individual's program of 
education.
    The $2,000 reimbursement limit for license or certification 
examination fees was established by law under section 122 of Public Law 
106-419, and would have to be amended by Congress. It should be noted, 
however, that a brief review of our records found no reimbursements 
that have approached the $2,000 threshold.

    Question 2: What is the number of veterans per year who take a 
licensure and credential exam? How many pass?

    Response: In fiscal 2007, the total of all individuals who received 
a reimbursement for a license or certification exam was 4,094. The 
Department of Veterans Affairs (VA) does not maintain records on the 
pass/fail rate for individuals taking license or certification exams.

                                  <all>

</pre></body></html>
